  Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




        Recruiting Human Subjects

Pressures in Industry-Sponsored Clinical Research




                        JUNE GIBBS BROWN
                         Inspector General

                             JUNE 2000
                           OEI-01-97-00195
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Nancy L. London, Lead Analyst                            Elise Stein, Program Specialist
Laura C. McBride, Lead Analyst




        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                         SUMMARY

   PURPOSE

            To evaluate the Department of Health and Human Services’ (HHS) oversight of sponsor
            and investigator efforts to recruit human subjects for industry-sponsored clinical trials.

   BACKGROUND

   Protecting Human Subjects

            In a June 1998 report, Institutional Review Boards: A Time for Reform,
            (OEI-01-97-00193), we identified weaknesses in the system intended to protect human
            subjects who participate in clinical trials. Since the release of our series of reports on
            institutional review boards (IRBs), both the Office for Protection from Research Risks
            (OPRR) in the National Institutes of Health (NIH) and the Food and Drug Administration
            (FDA) — the two bodies responsible for human-subject protections within the
            Department — have taken action against many research institutions, reflecting the strong
            Federal stance we called for in the recommendations of our report. OPRR has cited a
            number of research institutions for non-compliance with Federal regulations and
            temporarily suspended ongoing research at seven of these institutions. More recently,
            FDA terminated all gene therapy research after finding serious deficiencies in human-
            subject protections at another center. These collective actions support and respond to the
            findings in our report concerning the safety net for protecting human subjects.

   This Inquiry

            In this report, we follow up our prior report by focusing on one aspect of the clinical
            research process, the recruitment of subjects into industry-sponsored clinical trials. We
            have chosen to focus on industry-sponsored trials because in recent years the clinical
            research environment has become more commercialized and competitive, as industry
            sponsors have assumed a more prominent role in the search for new drugs. In this
            changing environment, with significant increases in the number and complexity of clinical
            trials, the quest to find human subjects has intensified. Sponsors and investigators are
            facing increasing difficulty finding enough subjects in a timely manner to bring drugs to
            market within their desired time-frame.




Recruiting Subjects in Industry-Sponsored Research   1                                   OEI-01-97-00195
            In this report and our companion report, Recruiting Human Subjects: Sample Guidelines
            for Practice (OEI-01-97-00196), we focus on the recruitment practices used in industry-
            sponsored clinical trials for investigational drugs. We explain the practices, identify major
            concerns about them, and address the extent and type of oversight undertaken by IRBs
            and, within HHS, by the FDA and NIH.

            Our inquiry is based on a survey of a random sample of IRBs; a review of FDA’s database
            of IRBs and investigators involved in investigational new drug research; a review of
            FDA’s IRB and clinical investigator inspection process, including participation in two
            FDA inspections; six site visits to research sites; reviews of existing Federal guidelines;
            interviews with numerous parties involved in each step of the recruitment process; and an
            extensive literature review.

   FINDINGS

            In this report, we focus on human subject recruitment for two main reasons. One is that
            recruitment is a vital first step in the consent process, one that must not in any way be
            coercive or misleading to the potential subjects. The second is that recent investigations
            and complaints reveal disturbing recruitment practices: a study in which patients were
            recontacted numerous times in an effort to persuade them to enroll; a nursing home
            resident who was forced to participate in a study or leave the home; and a subject, later
            found to be ineligible, who died after participating in a trial.

   Sponsors and investigators use four main strategies to recruit human subjects
   and encourage timely recruitment.

            <    Sponsors offer financial and other incentives to investigators to boost enrollment.

            <    Investigators target their own patients as potential subjects.

            <	   Investigators seek additional subjects from other sources such as physician referrals
                 and disease registries.

            <    Sponsors and investigators advertise and promote their studies.

   IRB officials and others closely involved with clinical research express many
   concerns about current recruitment practices.

            Erosion of Informed Consent. The most fundamental concern is that the consent
            process may be undermined when, under pressure to recruit quickly, for example,
            investigators misrepresent the true nature of the research or when patients are influenced
            to participate in research due to their trust in their doctor.




Recruiting Subjects in Industry-Sponsored Research    2                                    OEI-01-97-00195
            Compromise of Confidentiality. Many people raised concerns about someone other
            than the patient’s physician searching medical records and then contacting a patient about
            participation. They also raised concerns about investigators’ use of other records such as
            disease registries, school records, or mailing lists.

            Enrollment of Ineligible Subjects. Research observers fear some investigators may be
            led to enroll subjects that are ineligible, or of questionable eligibility, in order to meet
            quotas and satisfy sponsors.

   Oversight of the recruitment of human subjects is minimal and largely
   unresponsive to emerging concerns.

            <	   IRBs are not reviewing many of the recruitment practices that they and others find
                 most troubling.

            <	   IRBs’ limited review of recruitment practices is in part due to their perceived lack of
                 authority to review certain practices.

            <	   HHS provides little guidance to IRBs on acceptable recruitment practices. In
                 contrast, some professional medical associations provide strong guidance on selected
                 issues.

            <	   In their own oversight of research sites, sponsors pay minimal attention to how
                 human subjects are recruited.

            <	   Nor does HHS pay much attention to recruitment practices in its inspections of IRBs
                 and investigators.

   RECOMMENDATIONS

            The critical challenge is to ensure essential human-subject protections without
            unnecessarily slowing the pace of research and discovery. With that objective, below we
            offer recommendations jointly to the FDA, NIH, and the Assistant Secretary of Health
            (ASH). We include ASH because the Secretary of HHS recently announced that OPRR
            will soon move from NIH to the Assistant Secretary’s office.

            The first two recommendations specifically relate to the oversight of human-subject
            recruitment. The last two relate to the oversight of human-subject protections more
            generally, but are integral to the oversight of recruitment. Although our methodology
            focused on drug research, we expect that our findings and recommendations would also
            apply to other types of human-subjects research, such as devices and biologics.




Recruiting Subjects in Industry-Sponsored Research    3                                    OEI-01-97-00195
   1. Provide IRBs with direction regarding oversight of recruitment practices

            Clarify that IRBs have the authority to review recruitment practices. FDA and
            OPRR should disseminate guidance explicitly stating this authority based on IRBs’
            established authority to ensure informed consent and review anything related to human-
            subject protections.

            Provide guidance to IRBs on how to exercise this authority. FDA and OPRR should
            suggest recruitment questions that boards should address in their protocol reviews and
            should foster discussion about these issues.

   2. Facilitate the development of guidelines for all parties on appropriate
   recruiting practices

            A clearer determination of appropriate recruiting practices would be helpful for all parties
            — sponsors, investigators, and IRBs. It is essential that this determination be made
            cooperatively with industry and the research community. As part of their deliberations,
            these parties could explore such questions as:

              < Is it acceptable for sponsors to offer bonuses to investigators for successfully
                recruiting subjects?
              < Should physicians be allowed to receive fees for referring their patients as potential
                subjects for a clinical trial?
              < Should the financial arrangements between sponsors and investigators be disclosed to
                potential subjects?
              < Does searching medical records for potential subjects constitute a breach of
                confidentiality?

            An examination of the feasibility and effectiveness of institutional policies currently in
            place could also provide useful information for those considering an expansion of current
            Federal guidance.

   3. Ensure that IRBs and investigators are adequately educated about human-
   subject protections

      <	 Require investigator education as a prerequisite for conducting research under FDA
         authority or before receiving funds under the Public Health Service Act.

      < Require that IRBs have a training program for members.

      <	 Require more extensive representation on IRBs of nonscientific and noninstitutional
         members. Such members can help sensitize IRBs to patient concerns about recruitment
         practices.



Recruiting Subjects in Industry-Sponsored Research   4                                    OEI-01-97-00195
   4. Strengthen Federal oversight of IRBs

      <	 Require that all IRBs register with the Federal government and regularly report basic
         descriptive information.

      < Revamp the FDA on-site inspection process.


   COMMENTS ON THE DRAFT REPORT

            We received comments on our two draft reports from HHS. We also solicited and
            received comments from the following external organizations: Public Citizen’s Health
            Research Group, Pharmaceutical Research and Manufacturers of America, Applied
            Research Ethics National Association in conjunction with Public Responsibility in
            Medicine & Research, and the Consortium of Independent Review Boards. We did make
            a number of changes in the final reports, many technical in nature, that respond to their
            comments. Below we summarize the major comments and offer our response to HHS
            and, collectively, to the external parties.

   HHS Comments

            HHS shared our concern about some current recruitment practices and agreed that such
            concerns could be minimized if it were to provide IRBs with guidance on appropriate
            practice. It agreed to work with professional societies and others to develop this
            guidance. Although HHS disagreed with our assertion that current guidance documents
            from FDA and NIH are unclear about IRB’s authority to review certain recruitment
            practices, it indicated that the new office in the Office of the Secretary would revisit this
            guidance and augment it as necessary. HHS indicated its commitment to establishing
            educational requirement for investigators, IRBs, and IRB staff and that efforts are
            underway within FDA to register IRBs.

            We are pleased that HHS has made such a significant commitment to establishing
            education requirements. We are also pleased that HHS has agreed to work with outside
            parties in developing consensus about appropriate recruitment practices. We encourage
            the Department to continue its current efforts to register IRBs. Although we agree that
            NIH and FDA already have guidance documents indicating that IRBs have authority to
            review recruitment practices, we found that many IRBs are uncertain of this authority,
            suggesting that clearer guidance is needed.

   External Parties’ Comments

            Overall, external parties echoed the concerns we raised about some current practices for
            recruiting subjects into clinical trials and agreed that steps should be taken to identify, at



Recruiting Subjects in Industry-Sponsored Research     5                                     OEI-01-97-00195
            a national level, appropriate recruitment practices. External parties’ comments to our
            report raised a few common concerns. One concern was that our recommendations would
            prompt Federal bodies to dictate appropriate recruiting practices without input from
            outside groups. Another was that already overburdened IRBs would be asked to add to
            their duties by suggesting that they review recruitment practices. Finally, there were
            several questions and concerns about our methodology, including the scope of the study
            and the evidence upon which our findings are based.

            We clarified some of the language we used in our draft report to elucidate our belief that
            guidelines for appropriate recruiting practices should emerge from a dialog among all of
            the key parties involved in clinical research, including IRBs, sponsors, investigators, as
            well as Federal bodies. We believe that our recommendation that HHS clarify IRBs’
            authority for reviewing recruiting practices would not add significantly to the boards’
            workload. Many IRBs already review recruitment practices; national guidelines on
            appropriate practices would reduce the time now required for IRBs to debate the future
            use of such practices. Regarding our methodology, we sought to document current
            recruitment practices in industry-sponsored research and any concerns raised by these
            practices; we did not judge the appropriateness of any of these practices, nor did we
            differentiate these practices and concerns by funding source. Our analysis was primarily
            qualitative, based on interviews and observations, due to the nature of the study topic.




Recruiting Subjects in Industry-Sponsored Research   6                                  OEI-01-97-00195
                               TABLE OF CONTENTS

                                                                                                                                    PAGE


   EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


   INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


   The Clinical Trials Main Players . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


   The Changing Clinical Trials Environment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


   FINDINGS


             Sponsors and investigators use four main recruitment strategies . . . . . . . . . . . . . . . . . . 16

             Current recruiting practices raise concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

             Oversight is minimal and unresponsive to concerns . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


   RECOMMENDATIONS

             Provide IRBs with direction regarding oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       32

             Facilitate development of guidelines on appropriate practices . . . . . . . . . . . . . . . . . . . .                           33

             Ensure investigators and IRBs are adequately educated . . . . . . . . . . . . . . . . . . . . . . . .                           34

             Strengthen Federal oversight of IRBs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                35


   COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36


   APPENDICES

             A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      39

             B: FDA Information Sheets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             41

             C: Professional Medical Association Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      44

             D: Full Text of Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        46

             E: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   72





Recruiting Subjects in Industry-Sponsored Research                     7                                                  OEI-01-97-00195
                                    INTRODUCTION

   PURPOSE

            To evaluate the Department of Health and Human Services’ (HHS) oversight of sponsor
            and investigator efforts to recruit human subjects for industry-sponsored clinical trials.

   BACKGROUND

   Protecting Human Subjects

            In a June 1998 report, Institutional Review Boards: A Time for Reform,
            (OEI-01-97-00193), we identified weaknesses in the system intended to protect human
            subjects who participate in clinical trials. Since the release of our report, both the Office
            for Protection from Research Risks (OPRR) in the National Institutes of Health (NIH) and
            the Food and Drug Administration (FDA) have taken action against many research
            institutions, reflecting the strong Federal stance we called for in the recommendations of
            our report. OPRR has cited a number of research institutions for non-compliance with
            Federal regulations and temporarily suspended ongoing research at seven of these
            institutions. More recently, FDA terminated all gene therapy research at another center
            after finding serious deficiencies in human-subject protections. These collective actions
            support and respond to the findings in our report concerning the safety net for protecting
            human subjects.

   Recruitment as a Human-Subject Protection Issue

            In this report, we follow up our prior report by focusing on one aspect of the clinical
            research process, the recruitment of subjects into clinical trials. Recruitment warrants
            special attention because it marks the first step in the informed consent process and, thus,
            must not be coercive or misleading. Second, as we found in a prior report, oversight
            bodies almost never witness the actual consent process.1 The review of some recruitment
            methods, particularly advertisements, provides additional opportunity for oversight bodies
            to monitor the actual content of the consent process. Third, little is known outside the
            research community about the ways in which subjects are recruited. An understanding of
            these practices is important in order to target effective oversight.

            Several recent Federal investigations and complaints raise concerns associated with
            recruitment: a study in which patients were recontacted numerous times in an effort to
            persuade them to enroll; a nursing home resident who was forced to participate in a study
            or leave the home; and a subject, later found to be ineligible, who died after participating
            in a trial.



Recruiting Subjects in Industry-Sponsored Research    8                                   OEI-01-97-00195
   Oversight of Human-Subject Protections

            Two agencies within HHS are responsible for protecting the rights and welfare of human
            subjects participating in clinical research: the FDA and NIH. As part of its oversight of
            clinical trials, FDA oversees research on products it regulates. Currently, NIH, through its
            Office for Protection from Research Risks (OPRR), oversees research funded by HHS.
            Both NIH and FDA delegate most of the direct authority for reviewing human-subjects
            research to institutional review boards. These boards, known as IRBs, are charged with
            reviewing research protocols and ensuring that adequate human-subject protections are in
            place.

   This Inquiry

            This report focuses on industry-sponsored research. We are focusing on this research
            because the financial incentives to create effective and competitive drugs profitably are
            more pronounced in industry-sponsored research than in research funded by the
            government. We are aware that government-funded research is not immune to these and
            other pressures; therefore, we may follow up later by focusing on recruitment in
            government-sponsored trials.

            It is important to note that the thrust of our information gathering for this report was to
            gain a better understanding of the concerns associated with recruiting practices. We
            recognize that there are many investigators who are conscientious in their recruiting of
            subjects and who seek to better understand how to educate potential subjects about
            clinical research and what it entails.

            Because of the potential for overlapping jurisdiction, we chose to review both FDA’s and
            OPRR’s oversight processes. Our focus on industry-sponsored clinical research would
            normally lead to an examination of FDA’s oversight of subject recruitment. However,
            OPRR’s oversight mechanism, the assurance document, is applied at many institutions to
            all research conducted at that institution regardless of funding source.

            We also focus on biomedical research, specifically drug-development research, rather than
            psychological, sociological, or other types of research that do not result in a marketable
            product. Furthermore, we concentrate on drug trials rather than medical device trials,
            because drug trials represent the majority of ongoing research. There are trials involving
            certain diseases for which sponsors have no difficulty finding a sufficient number of
            subjects; in these cases, there is a reverse struggle of trying to meet patients’ demands to
            be subjects in a limited number of clinical trials. We will not be addressing this “limited
            supply” issue that occurs in a minority of clinical trials.




Recruiting Subjects in Industry-Sponsored Research    9                                    OEI-01-97-00195
   Methodology

            We surveyed a random sample of IRBs; reviewed FDA and OPRR processes; analyzed
            FDA’s Center for Drug Evaluation and Research database of IRBs and investigators
            involved in Investigational New Drug research; conducted six in-depth site visits to both
            academic and independent research sites; reviewed FDA’s inspection process, including
            accompanying FDA inspectors on two inspections; reviewed existing guidelines;
            interviewed numerous parties involved in each step of the clinical research process; and
            conducted a thorough literature review. A more detailed description of our methodology
            can be found in appendix A.

            We conducted this inspection in accordance with the Quality of Standards for Inspections
            issued by the President’s Council on Integrity and Efficiency.




Recruiting Subjects in Industry-Sponsored Research   10                                 OEI-01-97-00195
                                    The Main Players in Clinical Trials

     Clinical trials for new drugs are complex and require the engagement of many different entities. In

     recent years, the number of these entities and their agents has proliferated. Below, we attempt to

     describe the roles of and interactions among these players. 


     Sponsors

     Pharmaceutical companies, which we refer to as sponsors in this report, are responsible for proving the

     safety and efficacy of investigational drugs, through clinical trials, to the FDA. Sponsors are also

     responsible for conducting on-site oversight of their trials. This oversight is carried out by monitors. 

     Traditionally, sponsors have not only conducted basic drug research and development, but have

     conducted the clinical trials needed to gain FDA approval of the drug. Recently, in an attempt to

     reduce their research and development costs and to streamline processes, sponsors have started

     outsourcing many aspects of clinical trials to other entities. Sponsors often delegate a variety of

     specialized functions, such as the organization and management of clinical trials, to contract research

     organizations (CROs) which sometimes, in turn, outsource to other specialized entities. Patient

     recruitment firms, public relation firms whose sole mission is recruiting human subjects, have emerged

     in recent years in response to sponsors’ and CROs’ desire for speedy recruitment of subjects. For the

     purposes of this report, the term “sponsors” refers to sponsors and their agents, including monitors,

     CROs, and patient recruitment firms.


     Investigators and Research Sites

     Sponsors depend upon physicians, called clinical investigators, to actually conduct clinical trials.

     Investigators often rely on their staff to handle the administrative and sometimes much of the clinical

     work associated with clinical trials. Often, investigators will have a point person, or study coordinator,

     a practitioner (generally a nurse) whose primary responsibility is to facilitate the conduct of clinical

     trials. Coordinators may be involved in recruiting and consenting subjects, as well as maintaining the

     data for the trial. In this report, the term “investigator” refers to all practitioners involved in conducting

     clinical trials, including study coordinators, sub-investigators and others.


     Investigators conduct trials in a variety of different settings. Traditionally, they have conducted clinical

     trials primarily in university hospitals, or academic medical centers (AMCs). Increasingly, research

     occurs in physicians’ private practices or in dedicated research sites, sites exclusively used for

     research. Some investigators and/or sites have tried to accommodate sponsors’ desire for efficient,

     streamlined trial conduct by forming site networks, sometimes referred to as site management

     organizations (SMOs).


     Human Subjects
     The final, and most critical, players in a clinical trial are the human subjects themselves. Subjects may
     be recruited by an assortment of agents and/or entities: sponsors, CROs, clinical investigators, research
     coordinators, and patient recruitment firms. In general, sponsors use healthy subjects to test the safety
     of a drug in first-in-human trials. They use subjects with the condition they are targeting to test the
     efficacy of a drug in later-stage trials.




Recruiting Subjects in Industry-Sponsored Research        11                                        OEI-01-97-00195
                         A Changing Clinical Trials Environment

   In a highly competitive environment, sponsors and investigators face
   growing difficulty finding subjects and finding them quickly

            The clinical research environment is evolving rapidly, with many of the changes creating
            significant competition for all players in the clinical trials arena. There has always been,
            and will continue to be, a public interest in bringing useful, potentially life-saving drugs to
            market quickly. However, recent changes in the research environment are causing
            sponsors to vie more aggressively to be the first to bring their product to market and are
            causing sites and investigators to compete more intensely for research contracts. Three of
            these changes particularly impact human-subject recruitment.

          Change                                                 Explanation
    Increased                 Higher drug development costs. The cost of developing new drugs is growing
    Pressure for              rapidly. In the past 20 years, the average cost of developing a drug has grown almost
                              10-fold from $50 million in the 1970s to $400-500 million in the 1990s.2
    Quick                     Pharmaceutical companies claim that they need to constantly increase the percentage
    Turnaround                of their expenditures allocated to research and development in order to remain
    Times                     competitive within the industry.3
                              Increasing industry investment in research and development. Between 1998 and
                              1999, sponsors increased their world-wide research and development investments by
                              14 percent and have nearly tripled this investment between 1990 and 1999.4 As
                              developing drugs becomes more costly, sponsors are increasingly anxious to get their
                              products to market quickly in order to recoup these initial outlays. Thus, they are
                              trying to speed up the drug development process, of which subject recruitment is part.

    Intensified               More drugs in development. Pharmaceutical companies are developing more drugs
    Search for                now than ever before. In 1995, there were 2,585 drugs in pre-clinical testing; by 1998,
                              that number had risen to 3,278.5
    Human Subjects
                              More subjects needed for each trial. In addition, clinical trials are becoming more
                              complex and are requiring far more subjects per trial than before.6 An average of
                              4,237 subjects were used in New Drug Applications from 1994 to 1995, compared
                              with an average of 1,321 subjects from 1981 to 1984.7 Sponsors are struggling to meet
                              this increasing need for human subjects.

    Quest for More            Commercial research shifting to private settings. Pharmaceutical companies are
    Efficient                 seeking the quickest, most efficient settings to conduct their clinical trials.
                              Increasingly, they are shifting out of the academic medical centers (AMCs).
    Research Sites
                              Approximately 50 percent of industry-sponsored trials are conducted in AMCs now,
                              compared with 80 percent 5 years ago.8
                              Growth of private-practice investigators. Industry-sponsored trials are increasingly
                              leaving AMCs and flowing into private practice settings. The number of private-
                              practice based investigators increased from 3,513 in 1990 to 11,588 in 1995.9 This
                              growth is part of a larger influx of investigators into the clinical trials arena. The
                              number of new investigators increased approximately 22% annually between 1992 and
                              1996. 10



Recruiting Subjects in Industry-Sponsored Research         12                                         OEI-01-97-00195
   Quick Turnaround Times

            Many of the investigators, monitors, and other players in the clinical trial arena whom we
            interviewed noted a trend towards increasingly tight enrollment deadlines. As one
            investigator stated, “In the past 10 years there has been way more pressure to recruit;
            studies that used to take 1½ years to enroll [are] now [supposed to] take 3 months.” A
            typical explanation we heard of these “unrealistic” deadlines was that, increasingly,
            business people rather than clinicians are making decisions about enrollment goals and
            deadlines. Asked what sponsors are looking for from sites, one investigator responded,
            “Number one—rapid enrollment. Number two—rapid enrollment. Number three—rapid
            enrollment.” Virtually every investigator mentioned that a site’s ability to recruit quickly is
            one of the main qualities sponsors attempt to assess before contracting with a site, a belief
            that is supported by the literature.11

            Shorter enrollment deadlines reflect pharmaceutical companies’ struggle to remain
            profitable in a business that requires enormous investments of time, money, and risk before
            a product can reach the market. The clock for a drug patent starts running when the
            patent application is filed, which is prior to the clinical testing of the drug. Thus, sponsors
            wish to shorten the testing phase, as they are anxious to recoup research and development
            costs of their drugs before a generic or therapeutically similar drug appears on the market.
            Recruitment, a major bottleneck in the flow of drugs through the development pipeline, is
            one of the main aspects of clinical testing that sponsors are trying to shorten.12 Although
            pharmaceutical companies are setting shorter deadlines in hopes of hastening the
            recruitment process, most trials fail to meet these deadlines.13

            Sponsors and their agents constantly remind sites of the need to expedite recruitment.
            Sites report numerous phone calls from sponsors, informing them of how their enrollment
            statistics compare with those of other sites in the trial. One investigator, who was the top
            recruiter on a trial, told us that the sponsor called every week to urge her to keep enrolling
            so that she did not lose her “#1” status. Other sites report receiving newsletters with
            charts comparing enrollment at their site to others, faxes goading them to speed
            recruitment, and other reminders comparing their enrollment with that of other sites.

   Intensified Search for Subjects

            Not only do sponsors want rapid enrollment of subjects, but they also need increasing
            numbers of subjects to fill more and larger trials. More and more drugs are being
            developed as advances in biomedicine and genetics enable scientists to further understand
            disease mechanisms, and as pharmaceutical companies increase productivity to be
            competitive.14 These trials need to be filled by an ever-growing number of subjects.

            In addition, trials need to be filled with subjects that meet particular eligibility criteria.
            Defining appropriate eligibility criteria is an essential part of designing a trial, but these
            criteria also have broad implications for recruiting subjects. Virtually everyone we


Recruiting Subjects in Industry-Sponsored Research     13                                      OEI-01-97-00195
            interviewed cited overly restrictive eligibility criteria as one of the biggest barriers to
            enrollment. “They [sponsors] are asking us to find subjects that simply don’t exist” was a
            complaint we frequently heard in one form or another.15 Sponsor representatives also
            seemed well aware of this problem. The main explanation for these tighter eligibility
            criteria, given by both sponsors and investigators, is that sponsors need to prove the
            efficacy of their drug to increasing numbers of “customers,” including FDA reviewers,
            foreign regulators, clinicians, and the public. Particularly in the case of clinical trials for
            therapeutically similar drugs, even small improvements in efficacy can confer a tremendous
            marketing advantage for the experimental drug over the currently available, competing
            drug.16 Thus, sponsors design clinical trials to limit confounding factors. One investigator
            took this explanation further, claiming that sponsors “enrich trials with patients who are
            most likely to benefit.”

            A particularly troublesome eligibility criterion cited by many investigators is the exclusion
            from a trial of potential subjects who are either currently on medication to treat their
            condition, or have been on medication in the past. Subjects that have never been on
            medications are known in the industry as “naive” subjects. Investigators mentioned that it
            is virtually impossible to find these “naive” subjects, particularly in some therapeutic areas
            for which medication is the standard of care, such as asthma or hormone replacement
            therapy. Only those lacking access to drugs, such as the uninsured or some foreign
            populations, would not be on medication for these conditions.

            Many investigator and industry sources that we spoke to noted that sponsors are
            increasingly looking abroad for such subjects. In the past decade, there has been
            enormous growth in the number of new foreign investigators involved in trials testing
            drugs for FDA approval. According to our analysis of an FDA database, the number of
            new foreign investigators increased from 988 in the 1990-92 period to 5,380 in the 1996-
            98 period. Although sponsors’ search for “naive” subjects abroad has undoubtedly
            contributed to the increase in the use of foreign investigators in U.S.-based trials, other
            causes explain this proliferation of foreign investigators. Foreign research sites are often
            less costly to operate, may provide sponsors with access to populations with a high
            prevalence of the condition being studied, and, after testing, may facilitate launching the
            drug globally.17

   Quest for Efficient Research Sites

            “More, faster, and better”— we heard this phrase repeatedly from a variety of players in
            the clinical trials industry to describe sponsors’ desire for improved subject recruitment.
            Research sites are often competing with one another on the basis of their ability to recruit
            subjects.

            Sponsors seek research sites that can test drugs most efficiently and have access to the
            most subjects. Increasingly, sponsors are finding academic medical centers, the traditional
            site of research, to be slow and cumbersome compared with private practices


Recruiting Subjects in Industry-Sponsored Research    14                                    OEI-01-97-00195
            or dedicated research sites.18 The representatives of academic centers that we spoke with
            felt that it was difficult to compete with investigators in other research settings in terms of
            both numbers and speed of subject enrollment. Private sites are able to begin enrollment
            sooner than academic centers because private sites generally use an independent IRB
            rather than the traditionally slower academic IRBs. Finally, private-practice doctors often
            have a much larger patient base to tap for recruiting certain subject groups than
            investigators in academic centers, which are tertiary care centers. One research nurse,
            who left research in an academic center to open her own dedicated research site, said that
            when she had conducted clinical trials in an academic center, she and her staff were always
            hustling to keep up with the private sites and, as a result, had a hard time convincing
            sponsors to contract with them.

            As industry-sponsored research has migrated out of the academic centers, the number of
            new investigators conducting clinical trials has exploded. This proliferation of
            investigators is due, in part, to sponsors’ increasing acceptance of non-academic
            investigators. The increase is also a response to a growing need for investigators, fueled
            by the growing numbers of clinical trials. Also, many investigators have turned to clinical
            trials to compensate for managed care-driven reductions in patient-care revenue.19

            Many of the researchers we interviewed noted that the introduction of these new
            investigators into the clinical trials arena was exacerbating the competitive aspect of the
            clinical trials “business,” both inside and outside of the academic centers. Sponsors seem
            to be capitalizing on the increase in the supply of investigators. In addition to cutting
            study budgets, we found that sponsors are using their market advantage to encourage
            investigators to accelerate enrollment.20 First, before a contract is signed, sponsors will
            ask the investigator or site manager to estimate the numbers of subjects that the site can
            enroll. Sites are aware that if they do not give a high estimate, they probably will not be
            given the contract. Not surprisingly, sites often overestimate the number of subjects they
            expect to recruit, a frustration frequently reported by the sponsors and their agents with
            whom we spoke. Second, sponsors will often explicitly state when contracting with a
            research site that the site will be dropped if they do not enroll adequately. In this market-
            driven research environment, where one’s ability to enroll adequate numbers quickly is
            crucial to one’s competitiveness, poor enrollment on a trial could ruin a site’s chance for
            future participation in trials.




Recruiting Subjects in Industry-Sponsored Research    15                                    OEI-01-97-00195
                                               FINDINGS


   Sponsors and investigators use four main recruitment
   strategies to recruit human subjects and encourage timely
   recruitment
            In response to the difficulties they face in recruiting subjects for clinical research, sponsors
            and investigators use myriad methods to identify, inform, and recruit subjects.21 We
            identified four broad recruiting strategies which encompass a number of specific methods.
            Below, we identify the four strategies, the corresponding methods, and a brief explanation
            of their implementation. We further describe them and offer examples in the following
            pages.

        Recruitment            Examples of                                  Brief Description
         Strategy               Methods

    Offering                     Financial           < offering an additional payment per subject enrolled above
    Incentives                   Incentives            the study budget; seen most often as an enrollment deadline
                                                       nears and additional subjects are still needed

                                Nonfinancial         < items include office equipment, educational stipends, and
                                 Incentives            authorship on journal articles presenting research results

                                Competitive          < organizing trials so sites in a multi-center trial compete to
                                Enrollment             fill available subject slots on a first-come, first-serve basis

      Targeting Own           Referring Own          < identifying eligible patients when they come in for
         Patients             Patients to Trial        appointments or through chart reviews

         Seeking               Referrals from        < sending information about ongoing research to other local
     Additional Patient       Other Physicians         physicians, asking for referrals, and occasionally offering
           Bases                                       fees to induce referrals

                              Dissemination of       < distributing trial information to appropriate disease advocacy
                               Information to          groups or student groups, perhaps by giving lectures or
                              Relevant Groups          presentations to such groups

      Advertising and            Media Ads           < describing the trial, including study requirements, eligibility
        Promotion                                       criteria, and a contact for more information; can be found in
                                                        newspapers, on radio, television, or on Internet sites

                              Press Releases /       < compiling trial information in the form of a press release for
                              News Segments            airing on news programs or as a news article

                               Special Events        < disseminating information in speaking engagements, such as
                                                       local community organizations, health fairs, or medical
                                                       screenings


Recruiting Subjects in Industry-Sponsored Research          16                                           OEI-01-97-00195
   Offering Incentives

            The use of certain recruitment methods illustrates the transformation of clinical research
            into a traditional business model. Sponsors provide incentives, both financial and
            nonfinancial (see box), to investigators to encourage speedy enrollment and/or reward
            those that recruit certain numbers of subjects. Also, whereas before each site was allotted
            a certain number of subject slots,
            many trials now are conducted as
                                                      “...The order on the author list will be determined
            “competitive enrollment.” Because         by the number of patients enrolled, so that the
            sponsors pay sites per subject            center which enrolls the highest number of patients
            enrolled, competitive enrollment          will obtain first authorship...”
            penalizes those sites with a slow                       From a sponsor-investigator contract
            start-up period and encourages
            aggressive recruiting.22

            The use of financial enrollment bonuses appears to have increased somewhat in the past
            few years, despite evidence that such incentives are often ineffective.23,24 A coordinator
            we spoke with reinforced this notion when she told us her site “had gotten burned by
            enrollment bonuses in the past” because it enrolled all of its subjects before the bonus was
            offered. She told us, “we’ll think about that the next time around,” and possibly wait to
            enroll all of their subjects.

            It is important to distinguish the financial incentives used to encourage timely recruitment
            from the sponsor payments to investigators for costs associated with conducting clinical
            research. Research costs vary significantly based on the the requirements of the trial and
            can be very high when many expensive procedures are involved. When we refer to
            financial incentives for recruitment, we are referring to payments given to investigators
            purely to encourage speedy enrollment. Sponsors offer these incentives most often as an
            enrollment deadline nears or is passed.

            The distinction between payment and enrollment incentives, however, can get blurred in
            practice. As sponsors continue to cut initial study budgets, many investigators that we
            spoke with reported that bonuses can help sites recoup the costs of conducting trials.
            These investigators often stated that they would rather have the initial study budgets
            accurately reflect the trials’ costs. One investigator discussed a study in which he was
            initially paid $12,000 per subject enrolled. After other investigators in the trial complained
            to the sponsor of excessively tight budgets, the sponsor added a $30,000 bonus once a site
            enrolled its first six subjects and, after these first six subjects were enrolled, the site would
            receive an additional $6,000 per subject. The investigator, in describing this bonus
            scheme, emphasized that the sponsor had chosen to reimburse investigators by using
            bonuses to encourage recruitment rather than just revising the contract to reimburse
            investigators $18,000 per subject enrolled.




Recruiting Subjects in Industry-Sponsored Research     17                                    OEI-01-97-00195
   Targeting Own Patients

            For many investigators, their own patients are a vital source of subjects. Nearly all of the
            investigators we spoke with told us that they first tried to enroll any of their patients that
            were eligible. As an investigator at an academic center told us, he saw a direct correlation
            between his clinic time and his ability to recruit. When he reduced his clinic time to one
            half-day per week, his recruitment declined significantly; when he increased his time, his
            recruitment resumed accordingly. Similarly, investigators who lack certain types of
            patients often experience difficulties enrolling for those trials. For example, an academic
            physician we spoke with told us he had a hard time recruiting for one of his clinical trials
            because the trial focused on a common ailment. At the tertiary care center where he
            practiced, he rarely saw such common diseases which are easily treated by community
            physicians.

            Patients are an important source of subjects in both academic and independent research
            settings. Even though many independent centers are free-standing entities, these sites
            contract with investigators who specialize in the condition under study, in large part
            because the investigators have potentially eligible subjects among their patients. The
            investigators will then refer their patients to the research site.

            An advantage to using one’s own patient base is the relative speed and ease with which
            investigators can reach these potential subjects. In fact, when asked what sponsors are
            looking for in placing a research
            study, both sponsor representatives
            and investigators told us that access                     Looking for Trials!
            to eligible patients is key. Sponsors      We are a large family practice office with 4 physicians
            seek out investigators and sites with      and 3 Physician Assistants. We have two full time
            large patient populations when             coordinators and a computerized patient data base of
                                     25                40,000 patients....We are looking for Phase 2-Phase 4
            looking to place trials.
                                                       trials as well as postmarketing studies. We can
            Investigators recognize this and, in       actively recruit patients for any study that can be
            turn, have begun to advertise their        conducted in the Family Practice setting.
            large patient bases. Such
            advertisements are numerous and                An Internet advertisement directed to sponsors
            prominent, particularly on the                          by a private practice seeking research
                                                                                               opportunities.
            Internet, as investigators reach out to
            sponsors to place a trial with them
            (see box).26

   Seeking Additional Patient Bases

            When sponsors and investigators need more subjects, they target their search efforts to
            reach large groups of potentially eligible subjects, such as other physicians’ patient bases
            or disease advocacy groups. Occasionally, investigators offer fees to encourage referrals
            from other physicians or nurses. For example, one coordinator told us that a site she had


Recruiting Subjects in Industry-Sponsored Research       18                                       OEI-01-97-00195
            formerly worked at offered $75 to physicians or nurses for each subject referred. Another
            investigator told us about a local site that offered referring physicians a reimbursement of
            10 percent more than Medicare reimburses for services that this physician provided as part
            of the trial.

            The researchers we spoke with said that they rarely hear referral fees offered. This may be
            due, in part, to the fact that many investigators find referrals to be an unsuccessful method
            of identifying additional subjects.27 The investigators who found referrals fruitless
            believed other physicians lack the time and the interest in research to approach their
            patients about participating. In addition, several academic physicians felt that community
            physicians were concerned that if they referred their patients to a trial, the academic
            investigators might take over all of the patients’ care, thus “stealing” their patients.28

            Advocacy groups and student populations are another source of subjects. Advocacy
            groups often encourage researchers to develop new treatments for their disease. Many of
            these groups are eager to disseminate research information through their member
            networks and newsletters. Several investigators told us that they sometimes give
            presentations at advocacy meetings in which they try to mention their ongoing research
            protocols. For trials requiring healthy subjects, many sponsors and investigators reach out
            to student populations. Areas of high research activity are often located close to large
            universities.29

   Promotion and Advertising

            Advertisements seeking human subjects are common. They can be found in newspapers,
            on the radio, the Internet, television, or as posters in, for example, public transportation or
            hospitals. Ads can be very expensive, especially in certain parts of the country. Because
            of this, many researchers are reluctant to use them unless absolutely necessary. Several
            researchers told us that ads are cost-effective only for studies in which the eligible
            population is large and widely dispersed (i.e., depression or heart disease) as opposed to
            rarer conditions such as cystic fibrosis.

            Recently, sponsors and CROs have been helping sites recruit by initiating national
            recruitment campaigns for multi-site trials. The national efforts have spawned a new
            industry of patient recruitment firms and research marketing companies who are creating
            professional, elaborate marketing packages. Staff at the sites we spoke with report they
            are receiving more advertising from the sponsors at the start of the trial (including posters,
            fliers, and even prerecorded radio announcements for the local stations) than in years past.
            Many of these national advertisements include toll-free numbers. Call centers may provide
            operators who can screen respondents according to the trial’s eligibility criteria and can
            schedule appointments at sites most convenient to callers. Or, the toll-free number may
            automatically transfer to a phone at the closest site.




Recruiting Subjects in Industry-Sponsored Research    19                                    OEI-01-97-00195
            The Internet is a fast-growing medium for advertising to potential subjects. As health care
            consumers make efforts to become more informed about their options, they are turning to
            the Internet as an important resource.30 Sponsors and/or investigators may post
            information about a trial on their website or on central listings of active research. There
            are several central listings and, in the past several months alone, there have been two
            announcements of alliances between healthcare websites and clinical trial organizations to
            post trial information on the Internet.31 Information on the Internet may prove particularly
            beneficial in recruiting for trials involving rare diseases where any one site may have only a
            small number of eligible subjects in its area.

            Investigators told us that they have recently seen more press releases or television news
            segments describing their research and any promising progress the research may hold.
            Though not explicitly advertisements, the segments can generate numerous responses.32

   IRB officials and others closely involved with clinical
   research express many concerns about current recruitment
   practices
            Two-thirds of the IRBs responding to our survey expressed concern about current
            practices used to recruit human subjects. We not only heard concerns from IRBs, but also
            from investigators and sponsor representatives. The IRBs had particular concern about
            those practices that occurred apart from the actual investigator-subject interaction. Their
            concerns included the financial arrangements between sponsors and investigators (i.e.,
            financial incentives), referral fees, and database searches of private medical information for
            identifying and recruiting subjects. Both investigators and sponsors raised concerns about
            the increased pressure to recruit subjects in a timely manner. Many of them spoke of the
            need to establish a level playing field in the recruitment of subjects in order to avoid a
            “race to the bottom.” In general, the concerns permeate all four of the recruiting methods
            we described earlier. At the core, we identified three sets of concerns.

   The most fundamental concern is that current practices may contribute to the
   erosion of informed consent, the foundation of human-subject protections.

            In 1978, the National Commission for the Protection of Human Research Subjects laid out
            the guiding ethical principles still in use today in its report, the Belmont Report.33 The
            report identified three important elements to informed consent: information,
            comprehension, and voluntariness. The concerns that IRBs, sponsors, and investigators
            have about recruitment practices relate, in various ways, to each of these elements.

            Information. Potential human subjects, the Belmont Report makes clear, should have
            sufficient information that is both accurate and balanced in order to make an informed
            decision about participation.34 Misleading information may shape subjects’ initial
            judgment about a research study and, thus, may influence decisions about participating.


Recruiting Subjects in Industry-Sponsored Research   20                                    OEI-01-97-00195
             IRB officials,
            investigators, and            Therapeutic Misconception?
            sponsor representatives

            consistently expressed their

            frustration to us over

            seeing ads they

            considered misleading. 

            An ad may be

            misleading, for

            example, when it

            implies that an

            investigational drug is treatment rather than research (see box). Indeed, many subjects

            enter research studies with hope of receiving treatment, a phenomenon well-recognized by

            the industry.35 The blurring of research and treatment, often referred to as “therapeutic

            misconception,” can be difficult to clarify once a potential subject’s initial impressions

            have been formed. One coordinator explained that it was difficult for her to field phone

            inquiries following a news segment about a trial at her research site. She felt that the news

            segment portrayed the research as a potential cure; callers were eager to join the trial,

            despite the fact that the research was in its earliest testing stages. Ads also should not

            overly stress any payment, monetary or otherwise, offered to subjects lest they be

            considered coercive to the subject (see box below).36 Another concern we heard was

            about the use of receptionists without clinical expertise who answer 1-800 phone numbers,

            and serve as the first source of information for potential subjects.37


            In the case of national ads,

            even if IRBs do review an

                                               Research for Money?

            ad and raise questions, many
            IRBs are concerned that

            sponsors do not have to

            respond to their concerns. 

            One IRB official explained a

            recent situation in which his

            IRB was asked to review the

            video of a sponsor-produced

            television ad. The board had

            problems with the video

            because it felt the ad

            strongly misrepresented the purpose and potential effect of the investigational material. 

            However, despite repeated communications with the sponsor, the IRB was forced to

            acquiesce its authority in this matter; the sponsor was not bound to incorporate the

            changes because a different IRB had already approved the current version of the ad.38 The

            use of national marketing efforts to recruit is increasing; often the products are flashy, very

            general and do not reference a specific research site. Consequently, many IRBs are unsure

            of their authority in reviewing these national ads. 



Recruiting Subjects in Industry-Sponsored Research    21                                    OEI-01-97-00195
            IRBs also have concerns about some newer recruiting methods because the methods are
            not easily reviewed. News briefs, interviews, or speeches at health fairs call for
            investigators to speak freely. The focus of the presentation may not be about the research
            study per se, but the investigator may mention an ongoing study and invite interested
            people to participate. IRBs are confused over whether these methods actually constitute a
            recruiting method and what they can or should do after-the-fact.

            Comprehension. The way that relevant information is presented to potential subjects is
            also of vital importance. The Belmont Report states, “presenting information in a
            disorganized and rapid fashion, allowing too little time for consideration or curtailing
            opportunities for questioning, all may adversely affect a subject’s ability to make an
            informed choice.”39 It is important, therefore, that investigators and their staff convey the
            information in a way that facilitates potential subjects’ true understanding about a trial’s
            risks and benefits.

            Many people expressed to us their concern that the pressure-filled and competitive
            research environment may lead investigators or their staff to encourage hesitant subjects to
            participate.40 These concerns were raised particularly regarding financial incentives
            offered to investigators. According to one survey respondent, financial incentives have
            the “potential for pressure on/coercion of prospective subjects to enroll.” As one
            investigator stated, “bonuses are just an incentive for bad behavior.” Although the
            informed consent document lists the potential risks and benefits of the trial, investigators
            presenting informed consent documents to subjects may, consciously or subconsciously,
            distort their descriptions of the trial. As another respondent said, “I worry about what is
            said to potential subjects.” These concerns are validated by our findings in prior work.
            We found that IRBs focus a great deal of attention on ensuring that all relevant
            information is included in the informed consent document, which can run up to 20 pages
            in length. However, IRBs know little about the interaction between investigator and
            subject and, thus, how the study is actually presented to potential subjects.41

            The potential significance of industry incentives raises more concerns. Both academic and
            independent investigators we spoke with expressed the importance that industry monies
            play in maintaining their position and supporting their research staff. Nonfinancial
            incentives, such as authorship, may be important for career advancement or tenure
            decisions at academic institutions. The concerns surrounding these incentives invariably
            lead to questions about what constitutes adequate disclosure of relevant information.
            Potential subjects may not understand that investigators are paid or receive a bonus for
            their participation in a trial.

            Voluntariness. Even with accurate information and a balanced presentation, true
            informed consent, according to the Belmont Report, “requires conditions free of coercion
            and undue influence.”42 We heard significant concerns that the dual role of physician-
            investigators might infringe upon this voluntariness; concerns worthy of particular
            attention as we found that investigators often enroll many of their own patients into their


Recruiting Subjects in Industry-Sponsored Research   22                                    OEI-01-97-00195
            trials. Patients may be reluctant to contradict their doctor’s wishes by refusing
            participation in a trial, or may agree to participate because they trust and respect their
            physician, who they believe is looking out for their best interests. As one coordinator we
            spoke with said, “patients see their doctor as God.” Another investigator recognized the
            trust patients hold in their doctors. He told us that he was reluctant to even mention to his
            patients a trial that involved withdrawing their asthma medications. He was afraid they
            would agree to participate because he asked them, despite the fact that their current
            medications were stabilizing their asthma. A Presidential advisory commission went so far
            as to state that the patients of physician-investigators should be considered a vulnerable
            population.43

            Many ethicists see the doctor-patient relationship as fundamentally different than that of
            the investigator-subject. In the former, medical care is solely for the benefit of the patient.
            The investigator-subject model differs in that the subject may or may not benefit from
            participation in research and the primary interest of the investigator is to develop scientific
            knowledge.44 Some IRBs have recognized these concerns and accordingly enacted
            policies to distance the physician-investigator from the recruiting process.

            The potential influence of physicians on their patients’ decision to participate in a trial is
            particularly troubling for some observers of the clinical research process when the
            physician receives a fee for referring a patient to a trial.45 The concerns focus on the fear
            that referral fees may lead physicians to further encourage their patients to enter a trial in
            order to receive a fee. Referral fees are considered unethical by the American Medical
            Association and by some States; several IRBs and institutions also have policies forbidding
            their use.46

            We also heard concerns that people’s        “Done correctly, publicity can look like an
            trust in certain health care                endorsement by your well-respected newspaper
            professionals could influence their         reporter or TV news anchor. It can be an excellent
            perceived value of the research study       way to generate phone calls needed to fill studies.”
            being promoted, whether it be on the

            Internet, television, or elsewhere.               From an industry article on subject recruitment

            Potential subjects’ views and

            expectations of the research may be

            altered because they trust the source of the information (see box).47 One Internet site,

            associated with a widely respected former U.S. Surgeon General, received a referral fee

            for each subject enrolled in a trial through its website; after coming under increasing

            criticism, he dissolved this reimbursement mechanism.48 Another recruiting method we

            heard about is funneling trial information through disease-support chatrooms on the

            Internet. In one instance, an investigator went into a chatroom and answered questions

            about a study, providing the site’s name and number, but did not reveal that he was a site

            representative.





Recruiting Subjects in Industry-Sponsored Research      23                                     OEI-01-97-00195
            Concerns about voluntariness are often connected to subject payments as well. Subject
            payment levels have been studied and most parties involved in clinical research are
            sensitive to the fact that high payments may lead subjects to enroll in research that they
            would not participate in otherwise.49 As one article mentioned, “it is easier to recruit just
            before Christmas than in mid-August.”50

   A second major concern is that, in the rush to recruit subjects, sponsors and
   investigators may compromise patient confidentiality.

            The ease of scanning a patient database to find potential subjects makes the use of these
            databases very attractive for investigators under pressure to recruit (see box). Most
            people we spoke with were not concerned about investigators searching through their own
            patient database to identify eligible subjects. Rather, they were concerned about someone
            other than the patient’s physician going through medical records and then contacting a
            patient about participation. Several IRB representatives told us they did not allow their
            investigators to search any institutional databases, to the frustration of many of the
            investigators, who assumed that patients had granted access to their records by signing an
            informed consent document upon admission to the hospital.

            Patients often are unaware that their
            records are being reviewed by persons
            other than their physician and that         “At present, this group includes 9 cardiologists, 8
            these records may be used to contact        cardiovascular surgeons, 3 electrophysiologists, 7
                                                        nephrologists, 3 pulmonologists, as well as 7 primary
            them about participating in research.
                                                        care physicians. This gives XXX Research access to
            Many involved in clinical research          a patient base of over 100,000. Approximately 16,000
            believe that patients ought to know         of these patients are already in a computerized
            who has access to their records and to      database, which allows for rapid recruitment.”
            which records. The Secretary of
            HHS recently proposed regulations           “Access to our vast patient database enables us to send
                                                        direct mail pieces to prospective patients.... Patients
            regarding privacy of medical records        are listed according to ICD-9 codes for easy access.”
            that may have implications for this
            recruitment practice.51                                   From site advertisements to sponsors

            Physician databases are not the only
            source of confidentiality concerns; disease registries, school medical records, mailing lists,
            court records, or other databases have been used to contact subjects.52 For example,
            reporting to some State cancer registries is mandatory. We heard about one State’s
            registry that is available to any investigator working on a protocol approved by the
            registry. Yet people listed in registries or other databases may not have consented to
            being contacted for trial participation.

            Concerns about the confidentiality of medical information extend beyond using this
            information to contact potential subjects. We also heard concerns about confidentiality of
            personal information collected during the screening of potential subjects. For example,


Recruiting Subjects in Industry-Sponsored Research    24                                         OEI-01-97-00195
            when call centers are used to pre-screen prospective subjects, callers may be asked their
            name, contact information, and possibly sensitive information about sexual history or drug
            use. Potential subjects have little knowledge as to what happens to that information if
            they are not accepted into the trials. Adequate protections may not be applied to this
            sensitive information.

            IRBs have also received complaints of harassment from potential subjects. OPRR recently
            cited a research institution when it found investigators participating in harassing
            recruitment tactics. The potential subjects were recontacted repeatedly despite declining
            to participate.

   Another concern is that pressures on investigators to recruit may lead them to
   enroll subjects that are ineligible.

            Investigators seeking to fulfill a contract with a sponsor and/or ensure future contracts are
            under constant pressure to find subjects and recruit them quickly. At the same time,
            investigators face tight eligibility criteria, limiting the eligible pool of potential subjects.
            Sponsors decide appropriate eligibility criteria jointly with FDA and then inform
            investigators as to how to determine whether subjects fit these criteria. However, in a
            competitive environment, research observers fear that, while most investigators will enroll
            correctly, some investigators may enroll subjects that are ineligible or of questionable
            eligibility in order to meet quotas and satisfy eager sponsors.53

            Although it is difficult to quantify how often ineligible subjects are enrolled into trials,
            research observers tell us that it happens infrequently; most investigators enroll only
            eligible subjects. However, what constitutes “eligible” is often hazy; eligibility criteria
            often involve medical judgment, adding a degree of subjectivity to enrollment decisions.
            One sponsor monitor told us that some investigators that she has overseen have stretched
            enrollment criteria, claiming that some used “outrageously bad clinical judgment” just to
            get subjects into a trial. Another investigator, speaking about the use of incentives, said
            that if a bonus was set to 30 subjects and a site had 29, “you could bet that the site would
            get the 30th subject.” But, “I wouldn’t guarantee what you’d find” if someone looked
            more closely at the subject. Several investigators told us that they had questions about
            subjects’ true eligibility in some of their trials. Questions arose when the investigators
            had difficulty finding subjects, and yet other sites were able to enroll great numbers.

            The participation of ineligible subjects raises concerns about human-subject safety and
            data validity. Sponsors include certain exclusion criteria in order to prevent certain people
            from experiencing adverse reactions and/or to eliminate those at the greatest risk of harm
            from participating. When sponsors and FDA make decisions regarding a drug’s safety and
            efficacy, they base their conclusions on the assumption that the drug was tested on the
            intended population. If these assumptions are false, conclusions of efficacy could be
            wrong. There are many checks and balances in the clinical research system to uncover
            ineligible subjects before the trial data has been reviewed by FDA; FDA medical


Recruiting Subjects in Industry-Sponsored Research    25                                     OEI-01-97-00195
            officers, field investigators, and sponsors’ monitors all review subjects’ eligibility criteria.
            Yet, there have been recent cases in which none of these groups discovered that
            investigators had been enrolling ineligible subjects until after the trials were complete.54

   Oversight of the recruitment of subjects is minimal and
   largely unresponsive to emerging concerns
   IRBs are not reviewing many of the recruitment practices that they and others
   find most troubling.

            Although financial incentives given to investigators by sponsors to boost enrollment are
            among the recruitment practices that IRBs are most concerned about, 75 percent of IRBs
            that responded to our survey do not review any financial arrangements between sponsors
            and investigators. When IRBs do review subject recruitment practices, they primarily
            review advertisements and incentives paid to subjects, not practices involving sponsor-
            investigator interactions.

            In addition, 25 percent of IRB survey respondents do not ask investigators to explain
            recruiting practices in their application for review. The finding that a significant
            percentage of IRBs do not gather basic information about recruitment practices on their
            application for review raises the possibility that some IRBs may not be reviewing
            recruitment practices at all. In addition, of the 23 applications provided by our surveyed
            IRBs, 13 ask only general questions about recruitment such as, “How will subjects be
            recruited for the study?” Few inquire about specific recruitment practices in their
            application for review.

            On a positive note, although the IRBs that responded to our survey do not seem to be
            reviewing the recruitment practices they find most troubling, they claim to be devoting
            increasing attention to recruitment issues. Sixty-one percent of IRB survey respondents
            reported that they had requested changes in the recruitment practices called for by a
            protocol during the past 3 years and many said that they are requesting more of these
            changes now than 3 years ago. In addition, there has recently been a spate of messages on
            a listserv for IRB representatives regarding recruitment issues, reflecting both concerns
            and confusion about many of these issues. Despite lack of guidance from other sources,
            some IRBs and research institutions have created their own guidelines and policies relating
            to recruitment (see Recruiting Human Subjects: Sample Guidelines for Practice, OEI-
            01-97-00196), even though more stringent reviews may put these IRBs at a competitive
            disadvantage because the reviews take longer.




Recruiting Subjects in Industry-Sponsored Research     26                                     OEI-01-97-00195
   IRBs’ limited review of recruitment practices is in part due to their perceived lack
   of authority to review certain practices.

            IRBs may not be reviewing some recruitment practices because they do not believe that
            they have the authority to do so, or are uncertain of their authority. Our survey indicates
            that, while IRBs are confident about their authority to review advertisements for recruiting
            subjects and subject incentives, both explicitly mentioned in FDA guidance to IRBs, they
            are much less confident about their authority to review other recruitment methods. IRBs
            can draw their authority to review protocols from sources other than Federal regulations
            and guidelines, such as institutional policy. Yet, any steps that an IRB were to take
            toward establishing more stringent protocol reviews would be unpopular among the
            researchers in that institution. Given the competitive nature of the current research
            environment, such added stringency would put the IRB at competitive disadvantage.

                    IRBs’ perceived authority to review different recruitment practices

       Recruiting                   Method            Clearly Have    Are Uncertain     Clearly Don’t
        Strategy                                      the Authority    of Authority       Have the
                                                                                          Authority

    Offering            Authorship incentives         24%             42%             34%
    Incentives
                        Financial incentives to       43%             32%             26%
                        investigators

    Targeting One’s     Review of investigators’      60%             16%             24%
    Own Patients        own patient databases

    Seeking             Review of other physicians’   66%             17%             17%
    Additional          databases to identify/
    Patient Bases       contact eligible subjects

                        Referral fees                 65%             25%             10%

    Advertising and     Print ads                     96%             3%              1%
    Promotion
                        Radio/TV scripts              92%             7%              1%

                        Internet ads                  83%             15%             2%

                        Subject payments              92%             5%              3%

                        Receptionist scripts          64%             28%             9%


                                                                               Source: OEI survey, 1999.




Recruiting Subjects in Industry-Sponsored Research      27                                 OEI-01-97-00195
   HHS provides little clear guidance to IRBs on acceptable recruitment practices.
   In contrast, some professional medical associations provide strong guidance on
   selected issues.

            FDA. The primary guidance to IRBs comes from the FDA in the form of Information
            Sheets. Two Information Sheets relate specifically to recruitment issues, “Recruiting
            Study Subjects” and “Payment to Research Subjects” ( see appendix B for the complete
            text of these documents). “Recruiting Study Subjects” gives IRBs blanket authority to
            “review the methods and material that investigators propose to use to recruit subjects,”
            but does little to explain how methods ought to be reviewed.

            The Information Sheets also fail to mention many recruitment methods that are currently
            in use. The Sheets focus solely on methods that come into direct contact with potential
            subjects, such as advertisements, payments to subjects, and receptionist scripts. Notably
            absent from the Information Sheets is any guidance regarding methods that are “invisible”
            to subjects, such as how physician-investigators should handle their dual role when
            recruiting their own patients. Similarly, the Sheets fail to mention anything about
            investigators or others accessing names of potential subjects (with identifiable medical
            information), through electronic databases or medical charts, to contact about trial
            participation. Finally, the Sheets do not consider what types and degrees of financial
            incentives constitute a potential conflict of interest. The FDA recently began requiring
            investigators to disclose to the Agency some of the investigators’ financial arrangements
            with sponsors, evidence that FDA believes that a certain level of financial interest is
            relevant to the Agency’s own scientific review.55

            One of the most confusing issues not addressed in the Information Sheets is recruitment
            practices in multi-site trials. Sponsors, IRBs, and sites all reported being uncertain about
            some aspect of recruitment for these trials. IRBs were uncertain of their authority to
            change ads or telephone scripts on a multi-site trial if another IRB had already approved it.
            Private sites that used different IRBs for different trials complained about a lack of
            consistent guidelines for IRB review of ads and other recruitment materials; certain
            wording that was forbidden by one IRB might be required by another. Sponsors faced this
            same frustration when they tried to create an ad that would be acceptable to all of the
            IRBs in a multi-site trial.

            NIH/OPRR. OPRR has a Guidebook for IRBs that discusses a variety of recruitment
            issues not mentioned in the FDA Information Sheets.56 But, the Guidebook relies on the
            Information Sheets for specific guidance on recruiting practices. For example, the
            Guidebook draws attention to possible conflicts when the investigator is also the subject’s
            physician and to concerns of coercion when the trial offers free health care. It also
            mentions concerns regarding searching databases for potential subjects and then
            contacting these subjects about participating in the trial. However, the Guidebook fails to
            advise IRBs as to whether these practices should be allowed or how they ought to be




Recruiting Subjects in Industry-Sponsored Research   28                                   OEI-01-97-00195
            reviewed, nor does the Guidebook link these issues explicitly with recruiting practices.
            For instance, in discussing the practice of following up a letter requesting participation
            with a phone call, the Guidebook merely states, “IRBs should be sensitive to this
            concern.”57

            Other Sources. Federal oversight bodies are not the only sources of guidance available to
            IRBs. Many investigators and IRB members are members of professional medical
            associations that provide some additional guidance on recruitment issues. In our review of
            20 medical associations’ codes of ethics and position papers, we found that some
            associations have strong, explicit guidelines on certain recruitment issues (see appendix C
            and our companion report). For example, the American Academy of Neurology
            acknowledges the trust relationship that patients have with their doctors, especially in
            cases where patients are particularly vulnerable, such as people with severe, progressive,
            or terminal illnesses. Under such circumstances, the Academy claims that the “distinction
            between medical care and experimental treatment may become blurred.”58 It further
            suggests that researchers and IRBs take special precautions, perhaps by requesting that an
            “uninterested” party explain the research to the potential subject. The American College
            of Emergency Physicians states that industry payments to investigators should be
            disclosed.59

            Many other associations have general guidelines about medical practice that could be
            extrapolated to the practice of research. For instance, many professional medical
            associations prohibit the use of patients’ private medical information for any purposes
            other than diagnosis and treatment, unless the patient has given express permission.60
            Such a position could be interpreted to mean that these associations do not condone the
            use of private medical information for contacting subjects about trial participation.

   In their own oversight of research sites, sponsors pay minimal attention to how
   human subjects are recruited.

            Although IRBs’ central mission is to oversee human-subject protections, sponsors have
            responsibility for the ongoing safety of subjects in their trials. The FDA states that the
            “sponsor is responsible for assuring throughout the clinical investigation that the
            investigators’ obligations, as set forth in applicable regulations, are being fulfilled.”61 In
            fulfilling this responsibility, sponsors may officially delegate clinical trial monitoring
            responsibilities to a CRO.62 Sponsors or CROs oversee investigators, and in turn, the
            protection of human subjects, almost exclusively through their monitors.

            We found, in speaking with monitors and investigators, that monitors focus on ensuring
            the quality of data, rather than human-subject protections. Although monitors will often
            verify that advertisements have been approved by the site’s IRB, they do not verify IRB
            approval of some of the recruitment methods that raise the most concerns. Monitors visit
            the research site frequently and may learn of practices that raise concern. Yet, according
            to monitors and sponsor representatives, even if a monitor were to discover that an


Recruiting Subjects in Industry-Sponsored Research     29                                     OEI-01-97-00195
            investigator was doing something that raised concern, the monitor may be discouraged by
            his/her superiors from taking any action, particularly if the investigator in question were a
            prestigious one.63 Furthermore, sponsors initiate many of the practices that raise the most
            concerns, such as enrollment bonuses and authorship incentives, thus undermining their
            ability to oversee research sites’ recruitment practices effectively.

   Nor does HHS pay much attention to recruitment practices in their inspections of
   IRBs and investigators.

            The FDA routinely inspects investigators and IRBs under the Bioresearch Monitoring
            Program. Its objectives for conducting investigator inspections are, “ensuring the quality
            and integrity of data and information submitted to FDA as well as the protection of human
            research subjects.”64 However, our review of FDA’s inspection process for clinical
            investigators revealed that the FDA’s main focus is on the former, ensuring the integrity of
            data submitted to the Agency.

            The FDA’s stated purpose in inspecting IRBs is “to determine whether an IRB is
            operating in accordance with its own written procedures as well as in compliance with
            current FDA regulations affecting IRBs.”65 In our review of FDA’s inspection process for
            IRBs, we found that FDA focuses on procedural compliance, not the content of IRB
            reviews.

            Neither the IRB and investigator inspection protocols, nor the inspections themselves,
            consider how investigators recruit or ensure that IRBs oversee recruitment. The one
            exception involves ads. Both the investigator and IRB inspection protocols instruct FDA
            inspectors to determine whether any recruitment advertisements had been approved by the
            site’s IRB before subjects were allowed to participate in the trial.

            Not only are FDA inspections of investigators and IRBs limited in scope, but they are also
            limited in number, particularly at foreign research sites. The Center for Drug Evaluation
            and Research conducted 179 IRB inspections in 1998, out of a universe of roughly 3,000-
            5,000 IRBs.66 Despite the large number of foreign trials, the FDA normally does not
            inspect foreign IRBs.67 In that same year, 1998, CDER conducted 348 investigator
            inspections, of which 60 were conducted abroad.

            OPRR conducts many fewer inspections than FDA and conducts them primarily for cause.
            Unlike FDA, OPRR lacks a written inspection protocol that would enable us to determine
            exactly what they consider in its IRB inspections. Since most of OPRR’s inspections are
            for cause, its inspections are focused according to the problem at hand. Occasionally,
            those on-site reviews will address and raise concerns about recruitment practices. In at
            least one of OPRR’s recent inspections, OPRR faulted the IRB for inadequate review of a
            protocol’s recruitment methods and required the IRB to establish “subject enrollment
            procedures that minimize the possibility of coercion or undue influence” in order to be
            allowed to continue conducting federally funded research.


Recruiting Subjects in Industry-Sponsored Research   30                                    OEI-01-97-00195
                           RECOMMENDATIONS

            There is a compelling national need to recruit human subjects to participate in clinical
            research — a need vital to the continued progress and discovery of new, effective drugs.
            But, there is a danger that this imperative could compromise the protection of human
            subjects. Our inquiry reveals significant vulnerabilities concerning the recruitment of
            subjects. It also reveals that IRBs, the Federal government, and sponsors have been doing
            little to address the recruitment practices that generate the most concern.

            It is in the best interest of all involved in the research enterprise to address concerns about
            recruitment practices. In a highly competitive marketplace, with few rules or guidelines
            governing recruitment, there is a very real danger of a race to the bottom. Some sponsors
            and investigators may find it difficult to refrain from recruitment practices that are
            effective in delivering a steady stream of subjects to participate in clinical trials. But, these
            recruitment practices could compromise long-valued human-subject protections. A
            groundswell of concern over certain recruitment strategies, or negative publicity over an
            unfortunate event, would undoubtedly lower public confidence in clinical research and, in
            turn, heighten the difficulty many sponsors and investigators experience in recruiting
            subjects.

            The critical challenge, then, is to achieve some balance — to ensure essential human-
            subject protections without unnecessarily slowing the pace of research and discovery.
            This challenge is especially significant since IRBs, which serve as the main source of
            protection, are themselves in danger. As we have shown in a previous report, they are
            increasingly overburdened, have limited helpful information, and often have inadequate
            resources.

            Below we offer four main recommendations. The first two are specifically pertinent to the
            concerns raised about current practices used to recruit human subjects. The third and
            fourth recommendations, which stem from our prior work on IRBs, are aimed at
            improving human-subject protections more generally, but are integral to the issues of
            subject recruitment.

            We present these recommendations jointly to FDA, NIH, and the Assistant Secretary of
            Health (ASH). We include ASH because the Secretary recently decided that OPRR be
            moved to the Office of Public Health and Science, within the Office of the Secretary, with
            a direct reporting line to the Assistant Secretary for Health. In those instances where we
            present a recommendation to only one of the agencies, we specify the agency directly.

            We should also note that, although our methodology focused on drug research, we expect
            that our findings and recommendations would also be relevant to other types of clinical
            research (including clinical research on medical devices or biologics).



Recruiting Subjects in Industry-Sponsored Research     31                                    OEI-01-97-00195
   1. Provide IRBs with direction regarding oversight of
   recruitment practices
   1a. Clarify that IRBs have the authority to review recruiting practices

            The most important step that Federal bodies should take is to clarify that IRBs have the
            authority to review recruiting methods. Our review found that IRBs are uncertain of their
            authority to review recruiting practices, some of which raise significant concerns about the
            adequacy of the informed consent process.

            Federal regulations state that informed consent may be sought “only under circumstances
            that provide the prospective subject or the representative sufficient opportunity to
            consider whether or not to participate and that minimize the possibility of coercion or
            undue influence.”68 IRBs have the authority to ensure informed consent of human
            subjects. Similarly, Federal regulations require IRBs to review and approve the initiation
            and conduct of covered biomedical research activities involving human subjects. This
            broad mandate also provides a basis for IRBs to review practices for recruiting human
            subjects.

            Federal bodies should explicitly indicate in their guidance that certain practices that may
            only indirectly impact subjects, such as investigator incentives, also fall under IRB
            purview, as they may affect the informed consent process. FDA and NIH should
            disseminate this guidance promptly. The focus of current Federal guidelines and IRB
            oversight is on recruiting practices that directly affect potential subjects. IRBs most often
            review advertisements or subject payments, the subject of the two FDA Information
            Sheets.

   1b. Provide guidance to IRBs on how to exercise this authority

            FDA and OPRR should assist IRBs in their review of recruiting practices by suggesting
            questions that boards should address and by fostering discussion of the issues by IRBs at
            the local level. A simple statement outlining IRB authority to review recruiting practices
            is inadequate. Throughout its IRB Guidebook, OPRR does propose that IRBs pay
            attention to issues such as subject confidentiality and doctor-patient influence. However,
            these issues should be more closely linked with the review of recruiting practices. This
            guidance would be of immediate value to IRBs in their review of protocols, as many IRBs
            are extremely conscientious of their responsibilities as outlined in Federal regulation and
            guidance. Such direction will allow IRBs to take steps in their oversight previously
            considered unnecessary, murky, or intrusive.




Recruiting Subjects in Industry-Sponsored Research   32                                    OEI-01-97-00195
   2. Facilitate development of guidelines for all parties on
   appropriate recruiting practices
            We recognize that the concerns raised about current recruiting practices include many
            gray areas where opinions differ on appropriate practices. Thus, it is essential to involve
            an adequate representation of the key participants — sponsors, industry groups,
            investigators, IRB representatives, patient advocates, ethicists, and other parties (such as
            the Institute of Medicine) — in a process that addresses the concerns and seeks to develop
            consensus on appropriate practices. Such discussions are vital to assisting Federal bodies
            in developing further recruitment guidance, thereby maintaining adequate human-subject
            protections.

            A clearer determination of appropriate recruiting practices would be helpful for all parties
            — sponsors, investigators, and IRBs. Understanding the appropriateness of certain
            practices can be helpful for sponsors and investigators as they recruit subjects and for
            IRBs in their reviews. Recently, there have been forums convened considering standards
            for medical Internet sites.69 Further Federal guidance on appropriate recruiting practices
            will help to ensure a level playing field in the competitive clinical research marketplace.

            As part of their deliberations, the groups should seek consensus on questions such as:

              < Is it acceptable for sponsors to offer bonuses to investigators for successfully
                recruiting subjects?
              < Should physicians be allowed to receive fees for referring their patients as potential
                subjects for a clinical trial?
              < Should the financial arrangements between sponsors and investigators be disclosed to
                potential subjects?
              < Does searching medical records for potential subjects constitute a breach of
                confidentiality?

            In addition, a greater understanding of already established guidelines and their impact
            would be helpful to the deliberating groups, including Federal bodies, as they develop
            guidance on appropriate practices. The groups could research the existing guidelines and
            policies on issues not currently addressed in the FDA Information Sheets, many of which
            are already adhered to at local research institutions or in other countries.70 For example,
            they could assess what prompted these research institutions, foreign regulatory agencies,
            and medical professional associations to develop such guidelines or policies, any barriers
            that these entities have encountered in implementing these guidelines/policies, and how
            their members/investigators responded to them.




Recruiting Subjects in Industry-Sponsored Research   33                                   OEI-01-97-00195
   3. Ensure that IRBs and investigators are adequately
   educated about human-subject protections
   3a. Require education for investigators before conducting human-subjects
   research

            An education requirement could be a prerequisite for signing an investigator-agreement
            form (known as a 1572) to participate in research under FDA regulation or for receiving
            Public Health Service Act funds for conducting human-subject research. Investigator
            education is of particular importance because investigators and their staff are the ones who
            actually interact with potential subjects and often lead recruiting efforts. Also, there are
            an increasing number of new, inexperienced investigators participating in clinical research.
            At least one research institution has created a human-subject protection training
            requirement for its investigators.

   3b. Require that IRBs have a training program for board members

            Because of their vital roles as the primary source of human-subject protections, IRB
            members must have adequate training that highlights the issues surrounding the
            recruitment of human subjects. IRB education could inform members of current recruiting
            practices and could raise their awareness of concerns about these when conducting their
            reviews.

   3c. Require more extensive representation on IRBs of nonscientific and
   noninstitutional members

            The requirement of at least one noninstitutional and one nonscientific member out of five
            members should be interpreted as a ratio. IRBs often have 15 or more members and the
            requirement can be fulfilled with the appointment of just 1 person. Nonscientific and
            noninstitutional members on IRBs can further ensure that IRBs are sensitive to human-
            subject protection issues; lay members’ voices provide an important balance to
            institutional interests on an IRB. Because many recruiting concerns raise issues about
            what a typical subject would wish to know in order to make an informed decision or what
            constitutes a breach of confidentiality, the perspectives of independent lay members are of
            particular importance.71




Recruiting Subjects in Industry-Sponsored Research   34                                  OEI-01-97-00195
   4. Strengthen Federal Oversight of IRBs
   4a. Require that all IRBs register with the Federal government and regularly
   report basic descriptive information

            Federal oversight could be strengthened if IRBs were required to submit, at a minimum,
            brief descriptive information including location and contact person. Such information
            would be extremely helpful in disseminating guidance and targeting effective oversight,
            such as inspections. FDA has begun the process of developing such a registration system.
            We also suggest that there be one registration system for all HHS agencies involved in
            human-subject protection oversight, further facilitating communication and oversight
            efforts between the agencies.

            FDA has a database of IRBs identified on the investigator-agreement form submitted to
            review Investigation New Drug research, but the database is limited. We used the FDA
            database to identify IRBs for our survey. A significant percentage of the surveys were
            returned to sender or the contact person called us to say that they had never heard of the
            IRB or were never involved with its reviews. These limitations of FDA’s IRB database
            are particularly important because recruitment guidance for IRBs would be disseminated
            using the database, thus raising the possibility that a large number of IRBs would not
            receive such critical guidance.

   4b. Revamp the FDA on-site inspection process

            In FDA’s inspections, primarily the clinical-investigator inspections, the Agency could
            address many of the concerns about recruiting methods and raise questions about how
            human subjects were recruited. Inspectors could consider assessing the range in number
            of subjects enrolled across sites. If, for example, one site enrolled significantly more
            subjects than other sites or financial incentives were offered by sponsors, inspectors could
            probe to understand how these subjects were enrolled and why the high-enrolling site was
            able to recruit when others were unsuccessful. Also, at these high-enrolling sites,
            inspectors could examine more closely whether enrolled subjects were truly eligible.




Recruiting Subjects in Industry-Sponsored Research   35                                   OEI-01-97-00195
                           Comments on the Draft Reports

            We received comments on our two draft reports from the Department of Health and
            Human Services (HHS). We also solicited and received comments from the following
            external organizations: Public Citizen’s Health Research Group, Pharmaceutical Research
            and Manufacturers of America (PhRMA), Applied Research Ethics National Association
            (ARENA) in conjunction with Public Responsibility in Medicine & Research (PRIM&R),
            and the Consortium of Independent Review Boards (CIRB). We did make a number of
            changes in the final reports, many technical in nature, that respond to their comments. We
            include the complete text of the comments in appendix D. Below we summarize the major
            comments and offer our response to HHS and, collectively, to the external parties.

   HHS Comments

            We appreciate both HHS’ positive response to our reports and its commitment to address
            the issues raised in our findings and recommendations. We are particularly encouraged by
            HHS’ committment to establish new requirements for human-subject protection education.
            As the primary bodies for subject protections, IRBs must be adequately educated about
            ethical issues in order to ensure protections. Investigators interact directly with subjects
            and therefore, must be attuned to protection issues and concerns. We note here also, that
            through the course of this study, we became increasingly aware of the fact that
            investigators’ staff interact with subjects much more so than investigators. We urge HHS
            to recognize the increasing importance of investigators’ staff in their efforts.

            We particularly welcome, too, HHS’ (through FDA, NIH, and the new Office of Human
            Research Protections) willingness to work with all parties in clinical research to develop
            guidance on appropriate recruiting practices. As we noted in our recommendations, it is
            essential that all parties be involved in this consensus-building process. The Department,
            and particularly NIH, is a well-recognized leader in the field of clinical research and is
            well-positioned to take a leading role in this important area.

            We acknowledge in the report that both FDA and NIH have current guidance documents
            highlighting the recruitment of human subjects. However, we found in our survey that
            many IRBs remain unsure of their authority to review recruiting practices and, therefore,
            further guidance is needed. Clearer guidance is especially important because IRBs may
            face pressure to provide a timely review of protocols. In reassessing the current IRB
            guidance, we urge HHS to consider our recommendation that IRBs be provided guidance
            clarifying their authority in this area. The guidance need not be a laundry list of how to
            review each individual practice, rather a reminder that IRBs already have the authority.
            This guidance would also serve as a recognition that recruiting practices can impact
            human-subject protections.




Recruiting Subjects in Industry-Sponsored Research   36                                  OEI-01-97-00195
            Through its assurance process, OPRR does have identifying information on the IRBs it
            oversees. With the move to the Office of the Secretary and the new office’s central role in
            representing the Department, we urge the new office and FDA to combine its efforts to
            create one repository for information and contacts for all IRBs involved in HHS activities.
            As HHS acknowledges in its comments, this information will facilitate more effective
            education and oversight.

   External Parties’ Comments

            Overall, we were pleased that external parties echoed the concerns we raised about some
            current practices for recruiting subjects into clinical trials and that steps should be taken to
            identify, at a national level, appropriate recruitment practices. The following are common
            points raised in the external parties’ comments to our report:

            Consensus about appropriate recruitment practices must be forged among all
            parties.

            A number of parties raised concerns that our recommendations would call for Federal
            bodies to dictate appropriate recruiting practices without input from outside groups.
            These are not easy questions and there are not easy answers. Thus, we have
            recommended that all of the different parties involved in clinical research, including
            Federal oversight bodies, sponsors, investigators and IRBs, search for reasonable
            consensus on appropriate practices. We hope that the concerns we raise in this report
            provide the impetus for discussions on appropriate practice.

            Other entities must share the responsibility for overseeing recruitment practices
            with IRBs.

            Many voiced concern that IRBs are already overburdened and, therefore, it would be
            unwise to add to their duties. We share this concern, but do not believe that the
            recommendations laid out in this report would necessarily require more work on the part
            of the IRB. First, just as we believe that decisions about appropriate recruitment practices
            should be arrived at jointly, we believe that the oversight of these practices should be a
            shared responsibility. Presumably, as consensus develops, sponsors and investigators will
            be more aware of which recruitment practices are appropriate and will refrain from
            engaging in them, making the IRB’s job easier. In addition, many IRBs already do review
            recruitment practices, but, because of a lack of clear guidance, this review can entail much
            debate. If clear guidance existed, such debate could be minimized. Ultimately, if
            recruitment practices are occurring that could potentially harm human subjects, then these
            concerns must be addressed, whether by the IRB or other entities, regardless of time and
            resource constraints. Perhaps some of the Federal IRB regulations could be revamped to
            allow IRBs greater flexibility to review issues that have direct impact on human-subject
            protections, as suggested in a prior report.




Recruiting Subjects in Industry-Sponsored Research    37                                     OEI-01-97-00195
            Clarifications on our Methodology

            Several points were raised about our methodology. In this report, we sought to document
            current practices used to recruit human subjects and identify any concerns associated with
            these practices. We did not seek to judge the appropriateness of any given recruitment
            practice. We also focused on industry-sponsored trials and therefore are not in a position
            to determine whether recruitment practices vary by funding source. We should note that
            much of our information was provided by investigators who were involved in research
            from different funding sources. It is possible that the investigators in talking with us may
            not have distinguished their research by funding source.

            Because of the variety of disease types, potential subject groups, phase of trial, and other
            factors specific to each protocol, we had to rely primarily on qualitative evidence, obtained
            through site visits and interviews with key stakeholders. There would have been no
            feasible way to conduct this study in a strictly data-driven manner. We drew from
            common themes that arose during the course of this study, using examples to illustrate
            these themes.

            Our IRB survey respondents included all types of IRBs: independent, hospital-based and
            academic IRBs. We did not consider the differences among these types of IRBs. There
            were no significant differences in responses to our survey when stratified by domestic
            versus foreign IRBs. We believe our findings and recommendations should apply to all
            types of IRBs.

            Answers to specific comments

            Registration of IRBs. ARENA raised concerns that our recommendation that IRBs
            register with FDA would add a burden to IRBs with little benefit. We believe that
            registration would allow FDA to provide guidance to all IRBs in an efficient, streamlined
            fashion. Because the Agency has limited and sometimes inaccurate information about the
            IRBs it oversees, its ability to disseminate guidance in a way that ensures that all IRBs will
            receive it is jeopardized. The registration process need not be a significant burden to an
            already overtaxed IRB system; the process could involve IRBs providing minimal
            descriptive information to FDA (i.e., location, address, contact person and number).

            Education Requirements. We agree with PhRMA that education of investigators, IRBs
            and sponsors should not be a “one-size-fits-all” model. Our recommendation calls for an
            education requirement. However, we do not intend to suggest that there should be a
            national standardized educational program. The substance of the education may vary
            according to the party it is geared towards. The important thing is that all of the parties
            are educated, as a prerequisite for taking part in FDA-regulated research.




Recruiting Subjects in Industry-Sponsored Research   38                                    OEI-01-97-00195
                                                                                        APPENDIX A


                                                Methodology


   IRB Survey

            We surveyed a total of 200 IRBs. We selected the random sample of IRBs identified
            through the FDA Investigational New Drug database. In an attempt to ensure that our
            respondents had adequate and recent experience to draw on and to improve the response
            percentage, the sample included only those IRBs involved in four or more IND trials in
            1997 and 1998 and those that identified a contact person. Of the 624 remaining unique
            IRBs in this group, we randomly selected 150 U.S.-based IRBs and 50 foreign IRBs.

            The surveys focused on any experiences or concerns they may have about any recruitment
            techniques and the extent and nature of their oversight. We received responses from 108,
            or 54 percent, of the IRBs we sampled.

   Review of FDA and OPRR Oversight Processes

            We reviewed each office’s oversight processes to determine whether and to what extent
            they address subject recruitment issues. For FDA, we reviewed the Bioresearch
            Monitoring inspection protocols for both IRBs and investigators. In addition, we
            accompanied FDA inspectors on the routine inspection of both a clinical investigator and
            an IRB. We observed the inspection process and reviewed files for IND clinical trials
            seeking information on subject recruitment. For OPRR, we examined the assurance
            process, reports from previous inspections, and its IRB Guidebook.

   In-depth Site Visits

            We visited five research sites, both academic and independent, to learn about individual
            investigators’ and research staff’s experiences recruiting subjects. We chose the sites
            based on their research activity, location, and our ease of access to the research
            community. In each of the institutions, we interviewed, among others, research
            investigators; research coordinators and nurses; IRB administrators and members; and
            institution administrators.

   Review of Existing Guidelines

            We collected relevant ethics codes or guidelines from 20 professional medical
            associations, numerous IRBs, and Canada. We then reviewed these guidelines to
            determine their applicability to the recruitment of subjects.




Recruiting Subjects in Industry-Sponsored Research   39                                  OEI-01-97-00195
                                                                                          APPENDIX A


   Analysis of Data in IND Database

            We analyzed the FDA Center for Drug Evaluation and Research’s Investigational New
            Drug database, current as of July 29, 1999, by importing the database into SAS to identify
            trends in, for example, the selection of sites and the activity of research investigators.

   Interviews with Key Parties

            We interviewed representatives of groups with national perspectives on recruitment issues,
            including: sponsors, CROs, SMOs, patient recruitment firms, IRBs, and ethicists.

   Literature and Document Review

            We reviewed relevant literature, including Federal documents, scientific and trade
            literature, the lay press, and relevant websites, for information on the issues surrounding
            recruitment.




Recruiting Subjects in Industry-Sponsored Research   40                                    OEI-01-97-00195
                                                                APPENDIX B


                                      FDA Information Sheets





Recruiting Subjects in Industry-Sponsored Research   41         OEI-01-97-00195
                                                          APPENDIX B




Recruiting Subjects in Industry-Sponsored Research   42   OEI-01-97-00195
                                                          APPENDIX B




Recruiting Subjects in Industry-Sponsored Research   43   OEI-01-97-00195
                                                                                                                                                                                                                                APPENDIX C


                 Professional Medical Association Guidelines

   The following chart indicates which medical associations have such guidelines or codes of ethics.
   Guidelines that specifically pertain to clinical trials are denoted by a U. Associations that have
   general medical practice guidelines or codes of ethics that could have implications for clinical
   research are denoted by a k.

       Professional Association                                                   Associations’ Guidelines or Codes of Ethics

                                                                                                                       Dua
                                                                                                                                                          Confidential                        Other
                                                      Incentives                                                        l
                                                                                                                                                           Records                           Guidance
                                                                                                                       Role



                                                                                                                       Dual investigator-physician role
                                                                                  Compensation to investigators
                                                                                  for conducting clinical trial




                                                                                                                                                              potential subjects
                                                                                                                                                              for identifying /contacting
                                                                                                                                                              Use of medical records
                                                      financial arrangements
                                                      Disclosure to subjects of




                                                                                                                                                                                                                                   sources of guidance
                                                                                                                                                                                                                                   Also defers to other
                                                                                                                                                                                            payment to subjects
                                                                                                                                                                                            Advertisement/
                                      Referral fees




                                                                                                                                                                                                                  News briefs
    American Academy of Allergy,
    Asthma and Immunology

    American Academy of Family        k                                                                                                                   k
    Physicians

    American Academy of                                                                                             U
    Neurology

    American Academy of                               k                           k
    Ophthalmology

    American Academy of                               k                           U                                                                                                                                             AMA Code
    Orthopaedic Surgeons                                                                                                                                                                                                        of Ethics

    American Academy of                                                           U                                                                                                         U
    Pediatrics

    American Academy of               k                                                                                                                                                                                         Nuremberg
    Physical Medicine and                                                                                                                                                                                                       laws
    Rehabilitation

    American Association of                                                                                                                               k
    Neurological Surgeons




Recruiting Subjects in Industry-Sponsored Research                                                                44                                                                                                             OEI-01-97-00195
                                                                                                                                                                                                                                APPENDIX C


       Professional Association                                                   Associations’ Guidelines or Codes of Ethics

                                                                                                                       Dua
                                                                                                                                                          Confidential                        Other
                                                      Incentives                                                        l
                                                                                                                                                           Records                           Guidance
                                                                                                                       Role




                                                                                                                       Dual investigator-physician role
                                                                                  Compensation to investigators
                                                                                  for conducting clinical trial




                                                                                                                                                              potential subjects
                                                                                                                                                              for identifying /contacting
                                                                                                                                                              Use of medical records
                                                      financial arrangements
                                                      Disclosure to subjects of




                                                                                                                                                                                                                                   sources of guidance
                                                                                                                                                                                                                                   Also defers to other
                                                                                                                                                                                            payment to subjects
                                                                                                                                                                                            Advertisement/
                                      Referral fees




                                                                                                                                                                                                                  News briefs
    American College of               k               U                                                                                                                                                                         Declaration
    Emergency Physicians                                                                                                                                                                                                        of Helsinki

    American College of                               k
    Obstetricians and
    Gynecologists

    American College of               U                                           k                                 U                                     k                                                        U
    Physicians

    American College of                               k
    Radiology

    American College of Surgeons      k               k

    American Geriatrics Society

    American Medical Association      U                                                                                                                   k                                                        U

    American Women’s Medical
    Association

    American Pharmaceutical
    Association

    American Psychiatric              k               U                                                                                                   k                                                                     AMA Code
    Association                                                                                                                                                                                                                 of Ethics

    American Society of                                                                                                                                   k                                                                     AMA Code
    Anesthesiologists                                                                                                                                                                                                           of Ethics

    American Society of Plastic       k               k
    and Reconstructive Surgeons

    National Medical Association




Recruiting Subjects in Industry-Sponsored Research                                                                45                                                                                                             OEI-01-97-00195
                                                                                     APPENDIX D

                   Comments on the Draft Reports and OIG Response


            In this appendix, we present the full comments of all parties that responded to our two
            draft reports. In order, the comments that we present in this appendix are from the
            following parties:

            <    The U.S. Department of Health and Human Serivces

            <    Public Citizen’s Health Research Group

            <    Pharmaceutical Research and Manufacturers of America

            <	   Applied Research Ethics National Association (in conjunction with Public
                 Responsibility in Medicine & Research)

            <    Consortium of Independent Review Boards




Recruiting Subjects in Industry-Sponsored Research   46                                  OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   47     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   48     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   49     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   50     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   51     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   52     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   53     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   54     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   55     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   56     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   57     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   58     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   59     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   60     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   61     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   62     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   63     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   64     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   65     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   66     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   67     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   68     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   69     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   70     OEI-01-97-00195
                                                          APPENDIX D




Recruiting Subjects in Industry-Sponsored Research   71     OEI-01-97-00195
                                                                                   APPENDIX E


                                                     Endnotes


   1. Department of Health and Human Services, Office of Inspector General, Institutional Review

   Boards: A Time For Reform, OEI-01-97-00193, June 1998.


   2. Niblack, J.F. “Why are Drug Development Programs Growing in Size and Cost? A View from

   Industry,” Food and Drug Law Journal 1997; 52: 151-154.


   3. Association of Clinical Research Professionals, ACRP’s White Paper on Future Trends, Spring

   1999, p.3.


   4. In 1990, total (domestic and foreign) drug research and development expenditures was $8.4

   billion. This number rose to an estimated $24 billion in 1999. 

   Pharmaceutical Research and Manufacturers of America, PhRMA Industry Profile 1999, Chapter

   2, p. 15. 


   5. Miller, K.L. and Pryce, S.L. “Better, Faster, Worldwide Too— Update on Pharmaceutical

   Contract Support Organizations,” a Hambrecht & Quist, L.L.C., Industry Report, Jan. 4, 1999.


   6. For example, in 1995, the average number of clinical and outcome procedures per protocol

   was 189, up from an average of 100 in 1991. From DataEdge, 1995 as cited in PAREXEL’s

   Pharmaceutical R&D Statistical Sourcebook, 1998: p.51. 


   Trials are becoming more complex as they attempt to provide information to more “customers”. 

   According to Niblack, these customers include, but are not limited to, the sponsor’s business

   management and shareholders, both national and international government regulators, opinion

   leaders in academic medicine, practicing physicians, formulary managers, and patients and their

   families. Each of these customers are seeking different types of information that can only be

   ascertained by adding more procedures or more subjects to a trial. 

   Niblack, JF. “Why are Drug Development Programs Growing in Size and Cost? A View from

   Industry,” Food and Drug Law Journal 1997; 52: 151-154.


   7. Pharmaceutical Research and Manufacturers of America, PhRMA Industry Profile 1998,
   Chapter 3, p. 27.

   8. Association of Clinical Research Professionals, ACRP’s White Paper on Future Trends:
   Faster Time to Market, 1998, p.10.

   9. Hovde, M. and Seskin, R. “Selecting U.S. Clinical Investigators,” Applied Clinical Trials
   1997: p. 35.




Recruiting Subjects in Industry-Sponsored Research      72                            OEI-01-97-00195
                                                                                       APPENDIX E

   10. Association of Clinical Research Professionals, “Sponsor Strategies To Reduce Development

   Costs and Cycle Times,” ACRP White Paper Part 2, 1997, p. 5. 

   Another indication of the inexperience of investigators is that, according to our analysis of the

   FDA investigational new drug database, 58 percent of investigators listed in it have only

   conducted one trial between 1980-98.


   11. Association of Clinical Research Professionals, “Sponsor Strategies To Reduce Development

   Costs and Cycle Times,” ACRP White Paper Part 2, 1997, p. 8.


   12. Poor enrollment has been blamed for 25 percent of delays in drug development. 

   Harper, B and Moench, L. “Emerging Patient Recruitment Performance and Cost Metrics” in 

   PAREXEL’s Pharmaceutical R&D Statistical Sourcebook, 1998: p. 57.


   13. Nearly 78 percent of clinical trials miss enrollment deadlines established by the sponsors. 

   Ibid.


   14. The drug industry estimates that “in order to sustain corporate earnings and Wall Street

   expectations, [pharmaceutical industry] output must be doubled in order to meet this ‘minimum

   hurdle.’ Moving beyond this requires a tripling of output.” 

   Association of Clinical Research Professionals, ACRP’s White Paper on Future Trends: Faster

   Time to Market, 1998, p.5.


   15. DataEdge gives an example of a real case study in which a database with 1.8 million patients

   was queried to find the numbers that meet a particular protocol’s eligibility criteria. The query

   revealed that 9,700 patients had the condition called for in the protocol, yet only 581 met all of

   the 18 eligibility criteria (or .03 percent). See DataEdge, “Patient Treatment Data: the Hidden

   Key to Faster Studies,” pg. 3. [http://www.dataedge.com/La1297.html, accessed Sept. 1999] 

   In cancer trials, “the largest single reason for the very low proportion of patients who are enrolled

   in clinical trials ...is eligibility rather than patient...refusal to enroll.” 

   Freedman, B. “Multicenter Trials and Subject Eligibility: Should Local IRBs Play a Role?” IRB

   1994;16(1):2. 


   16. Langreth, R. “Drug Marketing Drives Many Clinical Trials,” The Wall Street Journal, 16

   November 1998, A10.


   17. Kaitlin, K. “Global Drug Development and International Harmonization: the Emergence of

   China as a World Pharmaceutical Player,” Drug Information Journal 1998; 32: 1187S.


   18. The termination in June 1999 of the Clinical Research and Investigator Services (CRIS)

   portion of the University Health System Consortium, a consortium of 35 major academic research

   centers, is evidence of academic health centers’ struggle to compete with non-academic sites. 

   CRIS was created to help academic centers compete with other research sites for industry-

   sponsored research. However, according to a recent Centerwatch article, “it was determined that



Recruiting Subjects in Industry-Sponsored Research   73                                   OEI-01-97-00195
                                                                                        APPENDIX E

   the clinical trials market was too competitive and changing too quickly for UHC to keep pace.
   “UHC Closes Its Doors to Clinical Research,” Centerwatch 1999;6(8):8.

   19. A. Miller, “Trial Run,” American Medical News, 27 September 1999; 42(36):17. Also,

   Harris, S.M. “Issues to Consider in Clinical Trial Agreements,” American Medical News, 27

   March 2000; 43(12):17.


   20. A 1996 survey of 55 investigative sites found that the average research contract dropped

   from $50,000 in 1994 to $43,000 in 1996. 

   Association of Clinial Research Professionals, “Sponsor Strategies To Reduce Development

   Costs and Cycle Times,” ACRP White Paper Part 2 1997; p. 5. 

   Also see “AMC Models for Reform,” Centerwatch 1997; 4(7):1 and “Bonuses to the Rescue,”

   Centerwatch 1998; (5)11:1.


   21. For each trial, sponsors and investigators may use any combination of the available methods

   and the methods are chosen based on the type of trial, the target population, and available

   resources. 


   22. According to one recruitment specialist, this method encourages sites to compete with one

   another rather than working collaboratively to establish effective recruitment strategies. 


   23. In a survey of 35 sites, the percentage of their contracts that included subject recruitment

   bonuses increased from 14 percent in 1996 to 21 percent in 1998. “Bonuses to the Rescue,”

   Centerwatch 1998; 5(11):1. 


   24. Glass, H.E. “Higher Payments to Investigators Don’t Speed Study Completion,” Applied

   Clinical Trials 1995; 4:40-48. Also in Harper, B.S. “The Effectiveness of Sponsor/CRO-Site
   Performance Incentives,” The Monitor 1997; [http://www.acrpnet.org/monitor/fall97/html/article1.html,
   accessed Nov. 1998].

   25. We also heard that sponsors are beginning to analyze prescribing patterns in order to identify
   physicians for a study. Prescribing patterns can help to identify physicians with a large number of
   patients with a certain ailment and, in turn, areas of market potential (i.e., physicians that are
   prescribing a competitor’s drug).

   26. The combined power of a group of independent physicians, and hence patient databases, have
   made site management organizations (SMOs) a new force in the clinical trials arena.

   27. The reluctance of physicians to refer patients into research trials is problematic not only
   because it can lead to a dearth of subjects, but also because it can be a source of selection bias.
   See Dicker, B. and Kent, D. “Physician Consent and Researchers’ Access to Patients,”
   Epidemiology 1990; 1(2): 160-3.



Recruiting Subjects in Industry-Sponsored Research   74                                    OEI-01-97-00195
                                                                                        APPENDIX E

   28. The researchers who found referrals a valuable source of subjects were those whose research
   focused on terminal or life-threatening conditions, such as cancer or AIDS, where participation in
   research represented a last chance for treatment. Physicians were eager to find research
   opportunities for their patients.

   29. The attractiveness of student volunteers is also due, in large part, to their perceived eagerness
   to participate for financial reimbursement.

   30. For further discussion, see Getz, K. and Kennon, A. “Surf’s Up: An Update on Recruiting
   Subjects via the Internet,” Applied Clinical Trials 1998 May; 58-61.

   31. The National Institutes of Health launched a website [www.clinicaltrials.gov, accessed Apr. 2000]
   containing an online database of clinical trials, sponsored both by the government and private
   industry, in February, 2000. In addition, Centerwatch.com has recently announced its joint
   venture with americasdoctor.com to post trials. Drkoop.com formed an alliance with Quintiles,
   one of the leading CROs, to post its trials through the drkoop.com website.

   32. For example, see: R. Saltus, “Sign-up Starts for Trials of Cancer Drug,” Boston Globe, 28
   September 1999, p.A1. and L. Miller, “Cancer Victims Flood Phone Lines for Shot at New
   Drug,” AP Newswire, 28 September 1999.

   33. The Belmont Report: Ethical Principles and Guidelines for the Protection of Human
   Subjects of Research. (Washington, D.C.: U.S. Government Printing Office, 1978.) DHEW
   Publication No. (OS) 78-0012. Reprinted in Federal Register 44 (April 18, 1979): 23192.

   34. Ibid.

   35. In one report on effective strategies for recruiting subjects, the author outlined this point and
   stated, “panelists are eager to participate if they think they may receive a new treatment or
   possibly even a new cure.” Shiffer, M. “Strategies for Recruiting Research Subjects,” Applied
   Clinical Trials 1994;3(5):54-61.

   36. A marketing group, in an advertisement to sponsors and investigators, offered its services for
   “consulting in the advertising development process to help insure that ads are persuasive and
   compelling— yet will pass IRB scrutiny.”

   37. One coordinator we spoke with mentioned calling a number she found in a newspaper ad and
   finding that the receptionist mispronounced the inclusion/exclusion criteria.

   38. The IRB official also told us that his IRB could have taken the position that either the ad
   would be changed or they would not allow the research to be conducted at their site. However,
   the IRB agreed that it did not want the ad to be the deciding factor over whether or not the
   research took place.


Recruiting Subjects in Industry-Sponsored Research   75                                    OEI-01-97-00195
                                                                                       APPENDIX E

   39. The Belmont Report: Ethical Principles and Guidelines for the Protection of Human
   Subjects of Research. Washington, D.C.: U.S. Government Printing Office, 1978. DHEW
   Publication No. (OS) 78-0012. Reprinted in Federal Register 44 (April 18, 1979): 23192.

   40. For a discussion of these concerns, see: Isidor, J.M., Kaltman, S.P., “Fast Track to Disaster:
   Considerations Raised By Current Techniques for Recruiting Clinical Research Subjects,” Food,
   Drug, Cosmetic and Medical Device Law Digest 1998; 15(1): 21-22.

   41. Department of Health and Human Services, Office of Inspector General, Institutional Review
   Boards: A Time for Reform (OEI-01-97-00193), June 1998.

   42. The Belmont Report: Ethical Principles and Guidelines for the Protection of Human
   Subjects of Research. Washington, D.C.: U.S. Government Printing Office, 1978. DHEW
   Publication No. (OS) 78-0012. Reprinted in Federal Register 44 (April 18, 1979): 23192.

   43. Advisory Committee on Human Radiation Experiments, Final Report, (Washington, D.C.:
   U.S. Government Printing Office, 1995).

   44. This dual role may also be confusing for the physician-investigators; many physicians believe
   they are doing the best for their patients by enrolling them in research. See Miller, F. et al.
   “Professional Integrity in Clinical Research,” The Journal of the American Medical Association,
   28 October 1998; 280(16):1449-1454.

   45. For further discussion of these concerns, see Lind, S. “Finder’s Fees for Research Subjects,”
   The New England Journal of Medicine, 19 July 1990; 323(3):192-195.

   46. There is Federal legislation that highlights concerns in this area, though not specifically
   directed to the clinical research process. The anti-kickback statute forbids physicians or other
   health care providers from receiving inducements to provide services reimbursable under the
   Federal health programs (i.e., Medicare and Medicaid). However, though the statute is not
   explicitly directed to clinical research, the statute may become more of an issue if, in the future,
   the Health Care Financing Administration reimburses for clinical research under Medicare as is
   currently under debate. [42 U.S.C.§ 1320a-7b]
   The Stark I and II laws (Omnibus Budget Reconciliation Act of 1989 (P.L. 101-508) and the
   Omnibus Budget Reconciliation Act of 1993 (P.L. 103-66), respectively), which limit self-referral
   to certain entities, also highlight concerns about the potential impact of financial incentives on
   physicians’ referring practices. The statutes are applicable only to certain types of providers (i.e.,
   clinical laboratory or imaging services), but are based on observations that physicians with a
   financial stake in a providing entity more often refer their patients for these services than those
   that lack such ownership.

   47. Box citation: Westrick, J. “Effective Subject Recruitment,” Applied Clinical Trials 1997;
   July:41-44.


Recruiting Subjects in Industry-Sponsored Research   76                                   OEI-01-97-00195
                                                                                      APPENDIX E

   48. Noble, H. “Hailed as a Surgeon General, Koop Criticized on Web Ethics,” The New York
   Times, 4 September 1999.

   49. For further discussion on this topic, see: Dickert, N and Grady, C. “What’s the Price of a
   Research Subject? Appropriate Payments for Research Participants,” The New England Journal
   of Medicine, 15 July 1999; 341(3):198-203. and Ackerman, T. “An Ethical Framework for the
   Practice of Paying Research Subjects,: IRB 1989; 11(4):1-4.

   50. Shiffer, M. “Strategies for Recruiting Research Subjects,” Applied Clinical Trials 1994;
   3(5):54-61.

   51. Patient-identifiable medical records that are electronically maintained or transmitted would
   fall under the proposed regulation’s definition of “protected health information.” Therefore, the
   proposed rule would establish conditions for researchers’ access to such medical records to
   identify potential subjects. Thus, the release of this information to researchers would require
   either prior authorization by the respective patients or documentation of approval by an IRB or
   privacy board, as specified in the proposed regulation. [Standards for Privacy of Individually
   Identifiable Health Information announced in: 64 Fed. Reg. (No. 212), 3 November 1999.]
   The General Accounting Office also identified limitations in the IRB oversight of medical records
   privacy and the Common Rule in its recent report. [U.S. General Accounting Office, Medical
   Record Privacy: Access Needed for Health Research, but Oversight of Privacy Protections Is
   Limited, GAO-HEHS-99-55, February 1999.]

   52. Concerns about confidentiality are not limited to patients. A recent highly publicized case
   involved researchers contacting the younger brothers of males convicted through the juvenile
   court system. Researchers obtained the records, and identities of the offenders, through a review
   of court records and the boys’ probation officers.
   Institutional Review Boards— A System in Jeopardy: Hearing Before the Subcommittee on
   Human Resources of the House Committee on Government Reform and Oversight, 105th Cong.,
   June 7, 1998 (statement of B. Timothy Walsh, M.D., Co-Chair, New York Psychiatric Institute
   Institutional Review Board).

   53. This concern is amplified by the influx of new, and inexperienced, investigators into clinical
   research. Without experience or training, investigators may not understand the importance of
   eligibility criteria and/or who meets these criteria, not to mention what constitutes a reportable
   adverse event. These departures from good clinical practice have potential implications for
   human-subject protections as well as data validity and study results.

   54. Most notable among these are the cases of two Georgia researchers, known as high enrollers
   in the research industry, convicted of fraud in 1998 and a California physician convicted in early
   1999.




Recruiting Subjects in Industry-Sponsored Research   77                                  OEI-01-97-00195
                                                                                          APPENDIX E

   55. FDA recently issued regulations requiring clinical investigators to disclose certain financial

   conflicts of interests to the FDA. However, draft guidance for industry states that “[recruiting

   incentives such as enrollment bonuses] do not meet the definition of compensation that may be

   affected by study outcome (which as used in the rule refers to study results) and therefore are not

   reportable under the rule.” 

   See FDA Draft Guidance for Industry [http://www.fda.gov/oc/guidance/financialdis.html, accessed Dec.

   1999] announced in: 64 Fed. Reg. (No. 206), 26 October 1999.


   56. National Institutes of Health, Office for Protection from Research Risks, Protecting Human

   Research Subjects— Institutional Review Board Guidebook, 1993.


   57. Ibid. The OPRR Guidebook for IRBs includes a discussion of: concerns relating to dual

   patient-subject and physician-investigator roles (p.3-24), finding potential subjects through

   databases (pp. 3-35 and 3-36), contacting them through letter and telephone (p.4-20), and

   offering free health care to research participants (p. 3-45).


   58. Ethics Subcommittee of the American Academy of Neurology, “Position Statement: Ethical

   Issues in Clinical Research in Neurology,” Neurology 1998 March; 50:594.


   59. American College of Emergency Physicians, “Policy Statement: Code of Ethics for

   Emergency Physicians” (June 1997) and “Policy Statement: Gifts to Emergency Physicians from

   the Biomedical Industry” (reaffirmed March 1997).


   60. American Academy of Family Physicians, Compendium of AAFP Positions on Selected

   Health Issues, “Fees,” “Confidentiality,” and “Proprietary Practices.” [http://www.aafp.org/policy,

   accessed Dec. 1999],

   American Association of Neurological Surgeons, Code of Ethics, American College of Physicians,

   Annals of Internal Medicine Position Paper-- Ethics Manual, 4th edition, April 1999.

   [http://www.acponline.org/journals/annals/01apr98/ethicman.html, accessed Dec. 1999], 

   American Medical Association, Current Opinions of the Council on Ethical and Judicial Affairs,

   A-99 Edition, American Psychiatric Association, The Principles of Medical Ethics with

   Annotations Especially Applicable to Psychiatry (and Addendums), 1998 Edition, American

   Society of Anesthesiologists, “Guidelines for the Ethical Practice of Anesthesiology,” amended

   October 1997. [http://www.asahq.org/standards/10.html, accessed Dec. 1999].


   61. FDA Office of Regulatory Affairs, “Guidance for Industry: Guideline for the Monitoring of

   Clinical Investigations,” Jan. 1988, p. 3. See [http://www.fda.gov/ora/compliance_ref/bimo/clinguid.html,

   accessed Dec. 1999].


   62. 21 CFR § 312.52. 


   63. This phenomenon has also been cited in the literature. A legal compliance officer for a

   pharmaceutical company stated, “...While few people wish to acknowledge it, [monitors] and



Recruiting Subjects in Industry-Sponsored Research    78                                     OEI-01-97-00195
                                                                                   APPENDIX E

   auditors sometimes are placed in the awkward position of reporting on non-compliance by
   important and influential investigators, which can put a company in the uncomfortable position of
   having to confront the alleged offender, who may be a very important customer. Thus, there can
   be a tendency either to ‘rationalize’ why these issues are not signs of non-compliance or to
   ‘encourage the [monitors] or auditors to downplay the significance of their original findings.”
   Whitelaw, S.B. “Evaluating IRBs and their Roles,” Food, Drug, Cosmetic and Medical Device
   Law Digest, 1999;16:20.

   64. Food and Drug Administration, “FDA Inspections of Clinical Investigators,” FDA
   Information Sheets, September 1998.

   65. Food and Drug Administration, “FDA Institutional Review Board Inspections,” FDA
   Information Sheets, September 1998.

   66. This number is an estimate. Because IRBs are currently not required to register with FDA, no
   one, including FDA, knows the exact number of IRBs in this country.

   67. According to FDA officials, FDA lacks the authority to inspect foreign IRBs. Even if FDA
   had the authority to inspect these foreign entities, their enforcement ability is limited.

   68. Similar language is used in both FDA and overall HHS regulation (see, 21 CFR § 50.20 and
   45 CFR § 46.116, respectively).

   69. A recently convened forum of medical and health Internet sites met to discuss appropriate
   ethical guidelines for their sites around such issues as privacy, content, and sponsorship.
   Chin, T. “Health Sites to Develop Ethics Guidelines,” American Medical News, 8 November
   1999; 42(42):1.

   70. The Information Sheets are currently being revised. Additional recruitment guidelines may
   appear in them.

   71. A call for increased representation of independent members corresponds with OPRR’s
   recommendations to one institution following an investigation in which OPRR cited the institution
   for inadequate review of recruiting practices.




Recruiting Subjects in Industry-Sponsored Research   79                               OEI-01-97-00195
